UNITED STATES SUPREME COURT
WRIT OF CERTIORARI
APPENDIX OF EXHIBITS B.
Paul J. Begnoche, Sr.
PA DOC KH1738
SCI MERCER
801 Butler Pike
Mercer, PA 16137-5653

Re: U.S. Court of Appeals for the
Third Circuit of Pennsylvania
Case No. .20-2616

APPENDIX OF EXHIBITS B.(l)-(7). U.S. Court of Appeals Court Orders, Panel Orders and
appellant's Motions and correspondences to. the Third
Circuit Court of Appeals; and copy of his L.A.R.22.3
Statement of Reasons for Application for Certificate
of Appealablity.
EXHIBIT B.(l) U.S. Court of Appeals July 20, 2021, Court correspondence denying'
acceptance of appellant's timely filed "Motion for Leave to File a
Supplemental Petition."
appellant's June 24, 2021, Motion for Leave to File a Supplemental
Petition; and simultaneously filed actual Supplemental Petition.
EXHIBIT B.(2)

U.S Court of Appeals June 25/2021, ORDER,"The petition for rehearing
by the Panel and Court en banc,-is DENIED." Final Order Challenged.

EXHIBIT B.(3)

U.S. Court of Appeals June 11, 2021,ORDER,"The foregoing letter (Affidavit)
from appellant which the court may construe as a Motion for Leave to file
Petition for Rehearing out of time is GRANTED."
Appellant's February 21, 2021, Affidavit supporting Motion for Leave to
file Petition for Rehearing out of time; and simultaneously filed: Petition
Petition for rehearing en banc; Re Motion for extension of Time.
April 22, 2021, correspondence to Court of Appeals clerk verifying filings
between 11/23/2020* and February 21, 2021.
*

EXHIBIT B.(4) U.S. Court of Appeals January 21, 2021, ORDER,"The foregoing requests for
an extension of time to file request for Certificate of Appealability is
DENIED , The request for certificate of Appealability is DENIED."
Appellant's 9/23/2020, Motion tor Extension ot Time, to file his L.A.R.22.
.3 Statement of Reasons for Application of Certificate of Appealability."
January 28, 2021, correspondene to clerk of Court of Appeals
EXHIBIT B.(5) U.S. Court of Appeals 10/2, 2020, ORDER,"...This ORDER does not preveqfc -the
appellant from seeking a further extension of time if there is a Good Cause.'r
^ptember 11, 2020, Motion for L.A.R.8.0 Stay pending appeal; under L.A.R 22.3
Statement of reasons for Application for Certificate of Appealablity.
EXHIBIT B.(6) U.S. Court of Appeals "UNDATED" letter granting appellant,^ (45) day extes
extension of time, to file L.A.R.22.3 Statement of Reasons for Application of
Certificate of Appealability.
•
August 12, 2020, correspondence to/Clerk of Courtt'&f Appeals verifying
"Notice of Appeal' and current filings
EXHIBIT B. (7) .Appellants completed substantial showing under statute 28 U.S.C.§2253(c')(2)’yf>6f
L.A.R.22.3 Statement of Reasons for Application of Certificate of
Appealability

UNITED STATES SUPREME COURT
WRIT OF CERIORARI
APPENDIX B.
Paul J. Begnoche, Sr
PA DOC KH1738
SCI MERCER
801 Butler Pike
Mercer, PA 16137-5653

Re: Third Circuit of Pennsylvania
Case No. 20-2616

APPENDIX OF EXHIBITS B.
EXHIBIT B. (l).JUnited.States Court of Appeals for the 3rd Circuit
July 20, 2021, court correspondence denying appellant’s
timely filed Motion for Leave to file supplemental
Petition/and appellant’s simultaneously filed
supplemental petition.

c

)

t1

UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT

No. 20-2616

Begnochev. Superintendent Mercer SCI
To:

Clerk

1)

Motion by Appellant for Leave to File Supplemental Petition for Rehearing
En Banc

No action can be taken on the foregoing motion as the Court’s decision on
Appellant’s petition for rehearing was rendered on June 25, 2021. It is noted that
Appellant’s motion for leave to file supplemental petition for rehearing en banc along
with the supplemental petition was received by the Clerk on July 6, 2021. Any further
review must be sought in the United States Supreme Court.

For the Court,
s/ Patricia S. Dodszuweit
Clerk
Dated: July 20, 2021
CJG/cc:
Paul Joseph Begnoche, Sr.
Ryan H. Lysaght, Esq.
Ronald Eisenberg, Esq.

UNITED STATES' SUPREME COURT
WRIT OF CERTIORARI
APPENDIX B.
Paul J. Begnoche, Sr
PA DOC KH1738
SCI MERCER
801 Butler Pike
Mercer, PA 16137-5653

Re: Third Circuit of Pennsylvania
Case No. 20-2616

APPENDIX OF EXHIBITS B.
EXHIBIT B. (2);. U.S. Court of Appeals foc^the 3rd Circuit, June 25/2021,
ORDER, "The Petition for rehearing by the Panel and Court
en banc, is DENIED."

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 20-2616
PAUL JOSEPH BEGNOCHE, SR.,
Appellant
v.
SUPERINTENDENT MERCER SCI; DISTRICT ATTORNEY DAUPHIN COUNTY;
ATTORNEY GENERAL PENNSYLVANIA; COMMONWEALTH OF
PENNSYLVANIA
(District Court No.: 3-15-cv-02047)

SUR PETITION FOR REHEARING
Present: SMITH, Chief Judge. McKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY and PHIPPS, Circuit Judges
The petition for rehearing filed by appellant in the above-entitled case having
been submitted to the judges who participated in the decision of this Court and to all the
other available circuit judges of the circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing, and a majority of the judges of the
circuit in regular service not having voted for rehearing, the petition for rehearing by the
panel and the Court en banc, is denied.

BY THE COURT,

s/ THOMAS L. AMBRO
Circuit Judge
Dated: June 25, 2021
CJG/cc:
Paul Joseph Begnoche, Sr.
Ryan H. Lysaght, Esq.
Ronald Eisenberg, Esq.

2

UNTIED STATES SUPREME COURT
WRIT OF CERTIORARI
APPENDIX B.

Paul J. Begnoche, Sr
PA DOC KH1738
SCI MERCER
801 Butler Pike
Mercer, PA 16137-5653

Re; Third Circuit of Pennsylvania
Case No. 20-2616

APPENDIX OF EXHIBITS B.
EXHIBIT B. (3)

U.S. Court of Appeals 3rd Circuit June 11, 2021, ORDER,
"The foregoing letter (affidavit) from appellant which
the Court may construe as a Motion for Leave to file
Petition for rehearing out of time.is GRANTED."
Appellant’s February 21, 2021, Affidavit construed as
aVLetter" supporting Motion for Leave to file Petition
for Rehearing out of time;
simultaneously filed : Petition for rehearing En Banc;
Re; Motion for Extension of Time;
Appellant's April 22, 2021, correspondence to the U.S.
Court of Appeals Clerk of Court verifying appellant’s
filings between 11/23/2020, and February 21, 2021.

J

UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
No. 20-2616
PAUL JOSEPH BEGNOCHE, SR.,
Appellant
v.

SUPERINTENDENT MERCER SCI;
DISTRICT ATTORNEY DAUPHIN COUNTY;
ATTORNEY GENERAL PENNSYLVANIA;
COMMONWEALTH OF PENNSYLVANIA
(M.D. Pa. No. 2-15-cv-02047)
Present: AMBRO, Circuit Judge
1. Letter from Appellant which the Court may wish to construe as a Motion for
Leave to File Petition for Rehearing Out of Time
Respectfully,
Clerk/CJG
_________________________ ORDER________________________________
The foregoing Letter from Appellant which the Court may wish to construe as a Motion
for Leave to File Petition for Rehearing Out of Time is granted.
By the Court,
s/Thomas L. Ambro
Circuit Judge
Dated: June 11, 2021
CJG/cc:
Paul Joseph Begnoche, Sr.
Ryan H. Lysaght, Esq.
Ronald Eisenberg, Esq.

UNITED STATES SUPREME COURT
WRIT OF CERTIORARI
APPENDIX B.
Paul J. Begnoche, Sr.
PA DOC KH1738
SCI MERCER
801 Butler pike
Mercer, PA 16137-5653

Re: Third Circuit of Pennsylvania
Case No. 20-2616

APPENDIX OF EXIBITS: ;B.
EXHIBIT B. (4) U.S. Court of Appeals 3rd Circuit January 12.2021, ORDER,
"The foregoing request for an extension of time to file a
request for certificate of appealability is DENIED. The
request for certificate of appealablity is DENIED."
Appellant's 9/23/2020, Motion for Extension of time; to
file L.A.R. 22.3 Reasons for Application of Certificate of
Appealablity."

\.

<

January 7, 2021
BLD-061
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
C.A. No. 20-2616
PAUL JOSEPH BEGNOCHE, SR., Appellant
v.
SUPERINTENDENT MERCER SCI, ET AL.
(M.D. Pa. Civ. No. 15-cv-02047)
Present:

AMBRO, SHWARTZ and PORTER, Circuit Judges
Submitted are:
(1)

Appellant’s notice of appeal, which may be construed as a request
for a certificate of appealability under 28 U.S.C. § 2253(c)(1); and

(2)

Appellant’s request for an extension of time to file a request for a
certificate of appealability;

in the above-captioned case.
Respectfully,
Clerk
______________________________ ORDER______________________________
The foregoing request for an extension of time to file a request for a certificate of
appealability is denied. The request for a certificate of appealability is denied. The
District Court denied Begtioche’s petition filed pursuant to 28 U.S.C. § 2254. Jurists of
reason would not debate the correctness of the denial. See Hill v. Lockhart. 474 U.S. 52,
59 (1985) fStrickland standard applies to claims of ineffective assistance of counsel
regarding guilty pleas); Tollett v. Henderson. 411 U.S. 258, 267 (1973) (defendant may
not raise independent claims that occurred prior to entry of guilty plea); Boykin v.
Alabama, 395 U.S. 238 (1969) (guilty plea must be voluntary and intelligent);
Wash in firm v. Sobina, 475 F.3d 162, 165 (3d Cir. 2007) (guilty plea waives nonjurisdictional issues); Commonwealth v. Persinger, 615 A.2d 1305, 1307 (Pa. 1992)

(defendant must show manifest injustice in order to withdraw a guilty plea after
sentencing).
By the Court,
s/THOMAS L. AMBRO
Circuit Judge
Dated: January 12, 2021
CJG/cc:
Ryan H. Lysaght, Esq.
Ronald Eisenberg, Esq.
Paul Joseph Begnoche, Sr.
o

•p
X

of a fnnrrtatTOjfflffiate

issued in lieu
J^uaiy 12, 2021

tr

Teste:
Clerk, U.S. Court of Appeals for the Third Circuit

Case: 20-2616

Document: 10

Page: 1

• Date Filed: 10/02/2020'

UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT

No. 20-2616

Begnoche v.^Superintendent Mercer SCI
)

To: Clerk

i)

Appellant’s “Motion for Fed. R. Civ. P. L.A.R. 8.0 Stay Pending Appeal; of
Statutory Tolling Time to File L.A.R. 22.2-22.3 Application for Certificate
of Appealability”

2)

Appellant’s Letter Regarding Stay of Deadline for Submitting Application
for Certificate of Appealability

In the foregoing documents, the appellant appears to ask for additional time to
prepare an application for a certificate of appealability or that his deadline be stayed until
his prison lifts certain restrictions.
This appeal will not be stayed for an indefinite amount of time, but an additional
extension can be granted. If the appellant wants to file a formal application for a
certificate of appealability, he must do so on dr before November 30, 2020. If an
application is not filed by that deadline, the appellant’s notice of appeal will be
considered an application. See Fed. R. App. P. 22(b)(2).
This order does not prevent the appellant from seeking a further extension of time
if there is good cause to do so-as that deadline approaches. ' • :
For the Court,
s/Patricia S. Dodszuweit
Clerk
Dated: October 2, 2020 '
kr/cc: Paul Joseph Begnoche, Sr.
Ronald Eisenberg, Esq..
Ryan H. Lysaght, Esq.

UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT

No. 20-2616

Begnoche v. Superintendent Mercer SCI

To: Clerk

1)

Appellant’s “Motion for L.A.R. 8.0 Stay Pending Appeal; Under L.A.R.
22.0 Habeas Corpus Proceedings; L.A.R. 22.3 Application for a Certificate
of Appealability”

The foregoing motion appears to request a forty-five-day extension of time to file
application
for a certificate of appealability. To that extent, the motion is granted. If
an
the appellant wants to file an application for a certificate of appealability, he must do so
within forty-five days of this order. If a formal application is not filed by that deadline,
the appellant’s notice of appeal will be considered an application. See Fed. R. App. P.
22(b)(2).

For the Court,
s/ Patricia S. Dodszuweit
Clerk

Dated:

£c.cc*'oe.

Frew

20

UNITED STATES SUPREME COURT
WRIT OF CERTIORARI
APPENDIX OF EXHIBITS C.
Paul J. Begnoche, Sr.
PA DOC KH1738
SCI MERCER
801 Butler Pike, JA-3-1
Mercer, PA 16137-5653

Re: Third Circuit Court of Appeals
Case No 20-2616
corresponding to:
Case No. 18-1021

September 12, 2021
APPENDIX OF EXHIBITS C.(l) Court of Appeals Case No. 18-1021, May 31, 2018, ORDER by
the Panel and Court en banc, is DENIED.

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 18-1021

PAUL J. BEGNOCHE, SR.,
Appellant
v.
SUPERINTENDENT MERCER SCI, ET AL.

(D.C. Civ. No. 3-15-cv-02047)

SUR PETITION FOR REHEARING

Present: SMITH, Chief Judge. McKEE, AMBRO, CHAGARES, JORDAN,
HARD1MAN, GREENAWAY, JR, VANASKIE, SHWARTZ, KRAUSE,
RESTREPO, BIBAS, and NYGAARD,* Circuit Judges
The petition for rehearing filed by appellant in the above-entitled case having been
submitted to the judges who participated in the decision of this Court and to all the other
available circuit judges of the circuit in regular active service, and no judge who

* Judge Nygaard’s vote is limited to panel rehearing only.

concurred in the decision having asked for rehearing, and a majority of the judges of the
circuit in regular service not having voted for rehearing, the petition for rehearing by the
panel and the Court en banc, is denied.
BY THE COURT,

s/ L. Felipe Restrepo
Circuit Judge
Date:
SLC/cc:

May 31, 2018
Paul Joseph Begnoche, Sr.
Ryan H. Lysaght, Esq.

UNITED STATES SUPREME COURT
WRIT OF CERTIORARI
APPENDIX OF EXHIBITS C.
Paul J. Begnoche, Sr
PA DOC KH1738
SCI MERCER
801 Butler Pike, JA-3-1
Mercer, PA 16137-5653

Re: Third Circuit Court of Appeals
Case No. 20-2616
Corresponding to
Case No. 18-1021

September 12, 2021
APPENDIX OF EXHIBITS. C.(2) Court of Appeals March 8, Circuit Judge’s ORDER, "This
appeal is dismissed for ’lack of jurisdiction"1 under
S.C.R. §12.5

. March 1, 2018
BLD-133
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
C.A. No; 18-1021
PAUL JOSEPH BEGNOCHE, SR., Appellant
v.
SUPERINTENDENT MERCER SCI; ET AL.
(M.D. Pa. Civ. No. 3-15-cv-02047)
Present:

RESTREPO, BIBAS, and NYGAARD, Circuit Judges
Submitted are:
(1)

By the Clerk for possible dismissal due to jurisdictional defect; and

(2)

Appellant’s response to possible dismissal,

in the above-captioned case.

.

Respectfully,
Clerk
____________ __________________ORDER
______________,__________
This Court has jurisdiction of appeals from final decisions of the District Courts.
28 U.S.C. § 1291. Appellant seeks review of a District Court order denying a motion for
appointment of counsel in his habeas proceedings. An order denying a motion for
appointment of counsel may be reviewed only on appeal from the final judgment entered
in the case. Smith-Bey v. Petsock. 741 F.2d 22, 26 (3d Cir. 1984). As such a judgment
has yet to be entered here, this appeal is dismissed for lack of jurisdiction.
By the .Court,
s/ L. Felipe Restrepo
Circuit Judge
Dated: March 8, 2018
sb/cc: Paul Joseph Begnoche, Sr.
Ryan H. Lysaght, Esq.
A True Copy:'"'i-ji'.ii

Patricia S. Dodszuweit, Clerk
Certified Order Issued in Lieu of Mandate

/
i

i

UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF PENNSYLVANIA
PAUL BEGNOCHE

Civil No. 3:15-CV-2047

Petitioner
(Judge Mariani)
v.
(Magistrate Judge Carlson)
BRIAN THOMPSON, et al.
Respondents
ORDER

The petitioner in this case has filed what he acknowledges is at least his
sixth motion for appointment of counsel. (Doc. 142.) With respect to this request, it
is well-settled that individuals like the petitioner do not have a constitutional right
to counsel in habeas corpus proceedings. See. Reese v. Pulcomer. 946 F.2d 247,
263 (3d Cir. 1991). Rather,, appointment of counsel in such cases is governed by
Title 18, United States Code, Section 3006A(a)(2)(B), which provides that the
Court

has the discretion to appoint counsel in such cases when “the court

determines that the interests of justice so require. . . .”

The exercise of discretion in .this area is guided, however, by certain basic
principles. When applying this standard and exercising its discretion in this field,
the Court should determine both whether the petitioner has presented an arguably
meritorious claim, and if the appointment of counsel will benefit the petitioner and
the court in addressing this.claim. Id. At 263. In making this determination, factors
influencing a court’s decision on a request for appointment of counsel include the
complexity' of the factual and legal issues in a case, as well as the petitioner’s
ability to present these claims. Id. at 264. Thus, where the issues in a habeas
petition are narrow, or straightforward and capable of resolution on the record, or
where the petitioner demonstrates a good understanding of the issues and displays
the ability to forcefully and coherently present contentions appointment of counsel
is unnecessary. Id.
In this case, the Court concludes, as courts have on at least six occasions in
the past, based upon the entire history of this litigation to date that petitioner is able
to fully present his claims. Accordingly, at present the appointment of counsel is
not necessary for the petitioner and will-not materially aid the court in addressing
these claims.

See, Reese v. Fulcomer, 946 F.2d 247, 263 (3d Cir. 1991).

Accordingly, the Court believes that it would be premature and inappropriate to
appoint counsel at this time. Therefore, IT IS ORDERED that Petitioner's latest
'2

application for appointment of counsel (Doc. 143) is DENIED without prejudice
to reconsideration of the appointment of counsel at such time, if any, when the
Court finds that

the petitioner has presented meritorious claims, and the

appointment of counsel will benefit the petitioner and the court in addressing these
claims.
So ordered this 15th day of January, 2019.

S/Martin C. Carlson
Martin C. Carlson
United States Magistrate Judge

3

Case 3:15-cv-02047-RDM Document 194 Filed 07/09/20 Page lot 32

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF PENNSYLVANIA
PAUL BEGNOCHE,
Petitioner,
3:15-CV-2047
(JUDGE MARIANI)

v.
BRIAN THOMPSON, etal.,
Respondents.
PAUL BEGNOCHE,
Petitioner,

3:16-CV-2455
(JUDGE MARIANI)

v.
BRIAN THOMPSON, et at.,
Respondents.

MEMORANDUM OPINION
I. Introduction and Procedural History
Pending before the Court is a Report and Recommendation (“R&R”) (Case No. 3:15CV-2047, Doc. 163; Case No. 3:16-CV-2455, Doc. 20) by Magistrate Judge Carlson in
which he recommends the denial of two federal habeas corpus petitions brought by a state
prisoner. Petitioner has filed Objections to the R&R. (Case No. 3:15-CV-2047, Doc. 171).1
The Petitioner was convicted in Pennsylvania state court for violations of state law
related to the sexual exploitation of his daughter over the course of three years when the
victim was between seven and ten years old. Com. v. Begnoche, No. 286 MDA 2014,2015
1 Cited ECF Document numbers refer to the documents as they are filed in Case No. 3:15-CV-2047 unless
otherwise noted.

Case 3:15-cv-02047-RDM Document 194 Filed 07/09/20 Page 2 of 32

WL 7587202, at *1 (Pa. Super. Ct. Feb. 5, 2015). The Petitioner entered a plea of nolo
contendere on December 5,2011. Com. v. Begnoche, No. 286 MDA 2014,2015 WL
7587202, at *1 (Pa. Super. Ct. Feb. 5,2015). No direct appeal was taken by the Petitioner
and his sentence became final in May 2012. Com. v. Begnoche, No. 286 MDA 2014,2015
WL 7587202, at *1 (Pa. Super. Ct. Feb. 5, 2015).
Since his conviction, the pro se Petitioner has filed countless untimely and extremely
lengthy filings in state and federal courts in a perpetual attempt to relitigate the charges to
which he already pled no contest.2 On October 21,2015, Begnoche turned to the federal
courts and filed a Petition for a Writ of Habeas Corpus pursuant to 28 U.S.C. § 2254. (Case
No. 3:15-CV-2047, Doc. 1). Before the Court addressed his first petition, Petitioner filed
another Petition for a Writ of Habeas Corpus pursuant to 28 U.S.C. § 2254 on December
12,2016. (Case No. 3:16-CV-2455, Doc. 1).
On April 25, 2019, Magistrate Judge Carlson issued a Report and Recommendation
(“R&R”) (Doc. 163) recommending that both of Petitioner’s habeas petitions be denied and

2See, e.g., Com. v. Begnoche, No. 286 MDA 2014,2015 WL 7587202, at *1 (Pa. Super. Ct. Feb. 5,
2015)(affirming denial of first PCRA petition); Com. v. Begnoche, 633 Pa. 743,123 A.3d 330
(2015)(denying allowance of appeal); Com. v. Begnoche, No. 762 MDA 2015,2015 WL 6158817, at *3 (Pa.
Super. Ct. Oct. 19, 2015)(affirming denial of second PCRA petition); Com. v. Begnoche, 639 Pa. 393,160
A.3d 792 (2016)(denying allowance of appeal); Com. v. Begnoche, No. 1393 MDA 2015, 2016 WL
2908276, at *2 (Pa. Super. Ct. May 17,2016)(affirming denial of third PCRA petition); Com. v. Begnoche,
No. 1638 MDA 2016, 2017 WL 1398885, at *2 (Pa. Super. Ct. Apr. 19, 2017)(affirming denial of fourth
PCRA petition); Com. v. Begnoche, 645 Pa. 427,428,180 A.3d 1210 (2018)(denying allowance of appeal).
In connection with his 2015 Petition, Begnoche has filed: two motions for default judgment (see Docs. 32,
52), three motions for summary judgment (see Docs. 38,44, 73), six motions for writs of mandamus (see,
e.g., Docs. 45,172,176), two motions to disqualify the judge (see Docs. 6,133); and eight motions to
appoint trial counsel (see, e.g., Docs. 8,173).
2

Case 3:15-cv-02047-RDM Document 194 Filed 07/09/20 Page 3 of 32

that a certificate of appealability should not issue. (Doc. 163). On June 24,2019, Petitioner
filed Objections to the Magistrate’s R&R in his 2015 Habeas Case (Case No. 3:15-CV-2047,
Doc. 171). In his 2016 Habeas Petition case, in response to the R&R, Petitioner filed a
"Voluntary Dismissal by Petioner [sic]" seeking to dismiss his second habeas petition
without prejudice.3 (Case No. 3:16-CV-2455, Doc. 21).
Upon de novo review of Magistrate Judge Carlson’s R&R (Doc. 163), Petitioner’s
Objections thereto (Doc. 171), and all relevant filings, the Court will overrule the Objections
and adopt the pending R&R. Both petitions will be denied and certificates of appealability
shall not be issued in either case.
It. Analysis
A District Court may “designate a magistrate judge to conduct hearings, including
evidentiary hearings, and to submit to a judge of the court proposed findings of fact and
recommendations for the disposition” of certain matters pending before the Court. 28 U.S.C.
§ 636(b)(1)(B). If a party timely and properly files a written objection to a Magistrate Judge’s
Report and Recommendation, the District Court “shall make a de novo determination of those
portions of the report or specified proposed findings or recommendations to which objection
is made.” Id. at § 636(b)(1)(C); see also, Brown v. Astrue, 649 F.3d 193,195 (3d Cir. 2011);
M.D. Pa. Local Rule 72.3.

3 Because the Respondents filed an answer to Petitioner’s habeas petition (See Partial Answer to Petition
for Writ of Habeas Corpus, Case No. 3:16-CV-2455, Doc. 16) and did not stipulate to voluntary dismissal,
the 2016 Petition cannot be voluntarily dismissed without a court order. Fed. R. Civ, P. 41(a)(1)(A).
3

Case 3:15-cv-02047-RDM Document 194 Filed 07/09/20 Page 4 of 32

Here, Petitioner raises fifteen Objections to the Magistrate Judge’s R&R, most of
which are repetitive and have no factual or legal bases. Petitioner objects to the
consolidation of his petitions and the application of the statute of limitations, his lack of
access to the documents cited in the R&R, his lack of counsel, the speed at which his case
was reviewed, and the Magistrate Judge’s alleged bias against Petitioner. His Objections
also put forth a number of allegations that are merely an attempt to relitigate the entirety of
the habeas petition, including: the government deliberately destroyed exculpatory evidence
there was insufficient evidence to support his conviction, he has an alibi, his extradition was
illegal and amounted to kidnapping, he had ineffective assistance of counsel before and
after his conviction, and his plea was involuntary. The Court will address all of these
Objections in turn.
A. Objection 1: Consolidation and Statute of Limitations
Petitioner’s first Objection to the R&R is to Magistrate Judge Carlson addressing
both of his Habeas Petitions in one R&R. (Doc. 171, at 1-2). Petitioner argues:
Especially by using the pleadings and timing of the filings in one Writ of Habeas
Corpus to dismiss the other Writ Petition. These are two seperately [sic] filed
Writ Petitions that hold unrelated "Core Issues” of their Pleadings and the
application of Facts and Federal’ Laws cannot be considered equally under the
AEDPA’s novelty of Federal Law and Statute 28 U.S.C. § 2244(d)(1)
Timeliness of Petition.
(Id. at 1).
Petitioner cites to no precedent or law that would require the Court to separately
address his serial filings of multiple federal habeas corpus petitions, which are based on the
4

Case 3:15-cv-02047-RDM Document 194 Filed 07/09/20 Page 5 of 32

same conviction, In fact, the Supreme Court has suggested disjointed petitions are an
abuse of the writ and should not be entertained:
[l]f a prisoner deliberately withholds one of two grounds for federal collateral
relief at the time of filing his first application, in the hope of being granted two
hearings rather than one or for some other such reason, he may be deemed to
have waived his right to a hearing on a second application presenting the
withheld ground...Nothing in the traditions of habeas corpus requires the
federal courts to tolerate needless piecemeal litigation, or to entertain collateral
proceedings whose only purpose is to vex, harass, or delay.
Rose v. Lundy, 455 U.S. 509, 521,102 S.Ct. 1198,1205,71 L.Ed.2d 379 (1982).
Petitioner cannot demonstrate any credible reason why these petitions would need
to be addressed separately when they both arise from one conviction and the same
underlying set of facts. The R&R addresses all twenty-five grounds of his 2015 Petition and
the eight grounds of his 2016 Petition. (See R&R, Doc. 163, at 28 (2015 Habeas Petition
Grounds 11,14,17-18, 20-21), 30-33 (2015 Habeas Petition Grounds 1-7,9-10,15-16)
33-39 (2015 Habeas Petition Grounds 12-13,23), 39—41 (2015 Habeas Petition Grounds
14,19,22, 25), 41-44 (2015 Habeas Petition Grounds 8,24), 44-51 (2016 Habeas Petition
Grounds 1-8, dismissing as untimely)).
The Court can only assume Petitioner’s first objection is based on his belief that his
second petition is not time-barred. Petitioner appears to be attempting to argue that his first
2015 Petition tolled his second 2016 Petition. Petitioner’s argument is wholly incorrect.
The Antiterrorism and Effective Death Penalty Act (“AEDPA") applies a one-year
statute of limitations to applications for a writ of habeas corpus by a person in custody

5

Case 3:15-cv-02047-RDM Document 194 Filed 07/09/20 Page 6 of 32

pursuant to the judgment of a State court. 28 U.S.C. § 2244(d)(1). A properly filed
application for State post-conviction or other collateral review will toll the statute of
limitations for a writ of habeas corpus. 28 U.S.C. § 2244(d)(2). However, absent the grant of
a stay by the District Court to allow a petitioner to present his unexhausted claims to the
state court in the first instance, the statute of limitations will not be tolled during the
pendency of a petitioner’s first federal habeas petition, Rhines v. Weber, 544 U.S. 269,274
125 S.Ct. 1528,1533,161 L.Ed.2d 440 (2005); Duncan v. Walker, 533 U.S. 167,172,121
S.Ct. 2120, 2124,150 L.Ed.2d 251 (2001).
Petitioner entered a no contest plea and was sentenced on December 5,2011. (Tr.
Plea and Sentencing, Doc. 162). Because Petitioner did not seek direct appeal within thirty
days of his conviction, his sentence became final on January 4,2012. See 42 Pa.C.S. §
9545(b)(3); 28 U.S.C. § 2244(d)(1)(A). After 309 days elapsed, on November 8,2012;
Petitioner filed his first Pennsylvania Post Conviction Relief Act [“PCRA”] petition, stopping
the statute of limitations from running. (See 28 U.S.C. § 2244(d)(2); Doc. 161, at 201-47).
When the Pennsylvania Supreme Court denied his appeal on August 4,2015 and his
motion for reconsideration on September 15,2015 (Com. v. Begnoche, 633 Pa. 743,123
A.3d 330 (2015)), the statute of limitations began to run again, allowing him 56 days, or until
November 10,2015, to file his initial federal petition. See 28 U.S.C. § 2244(d)(1).
Petitioner filed his first federal habeas corpus petition on October 21,2015. (Doc. 1).
Over a year after filing his first federal petition, on December 12,2016, Petitioner filed a

6

Case 3:15-cv-02047-RDM Document 194 Filed 07/09/20 Page 7 of 32

second federal habeas corpus petition. (Case No. 3:16-CV-2455, Doc. 1).4 The 2015 federal
habeas petition did not toll the statute of limitations for the 2016 federal habeas petition.
Rhines, 544 U.S. at 274,125 S.Ct. 1528; Duncan v. Walker, 533 U.S. at 172,121 S.Ct.
2120. Even assuming the most generous timeline, the second petition, filed on December
12, 2016, was filed over one year after the statute of limitations expired on November 10,
2015. Therefore, the R&R is correct, the second petition is unquestionably outside the
statute of limitations. (Doc. 163, at 46).
Petitioner further argues that equitable tolling is appropriate in this case because he
was pursuing a “Motion to Vacate Judgment of Sentence And/Or...Set Aside His Mandatory
Minimum Sentence Pursuant to Aileyne v. United States, Nunc Pro Tunc." (Doc. 171, at 2).
Equitable tolling is only appropriate where a petitioner has “in some extraordinary way...
been prevented from asserting his or her rights." Miller v. New Jersey State Dept of Corn,
145 F.3d 616, 618 (3d Cir. 1998). The petitioner must demonstrate that he exercised
“reasonable diligence” when bringing the claim, “mere excusable neglect is not sufficient."
Id. at 618-19.
Petitioner provides no clear reason why equitable tolling would be appropriate in this
case. Petitioner fails to show any extraordinary circumstances that caused him to file his
second federal habeas petition a full year after the statute of limitations expired. His claim
4 The Court notes Petitioner failed to seek authorization to file his second federal habeas petition from the
Third Circuit Court of Appeals. 28 U.S.C. § 2244(b)(3)(A) ("Before a second or successive application
permitted by this section is filed in the district court, the applicant shall move in the appropriate court of
appeals for an order authorizing the district court to consider the application.").
7

Case 3:15-cv-02047-RDM Document 194 Filed 07/09/20 Page 8 of 32

that he was pursuing an untimely second state PCRA petition (“Motion to Vacate
Judgment...") is not sufficient to demonstrate that he was prevented from asserting his
rights in an extraordinary way. Com. v. Begnoche, No. 1393 MDA 2015,2016 WL 2908276
at *1 (Pa. Super. Ct. May 17,2016)(affirming the dismissal of Petitioner's second PCRA
petition as untimely). A state petition must be “properly filed” in order to toil the statute of
limitations. 28 U.S.C. § 2244(d)(2). Untimely PCRA Petitions do not toll the statute of
limitations for a federal habeas corpus petition. Fahy v. Horn, 240 F.3d 239, 243 (3d Cir.
2001)(defining "properly filed” as “timely”); Douglas v. Horn, 359 F.3d 257, 263-64 (3d Cir.
2004)(holding tolling inappropriate where petitioner filed untimely nunc pro tunc petition).
Most importantly, as Magistrate Judge Carlson stated, in a case where Petitioner
was convicted of sexually assaulting his daughter, “[T]here is also an important human
dimension to the statute of limitations. To ignore the limitations period prescribed by law,
and permit Begnoche to belatedly re-open this case, would compel his victim to, once again
experience the trauma of these events." (Doc. 163, at 47).
Petitioner's first Objection is unsupported and will be overruled.
B. Objection 2: R&R’s Use of Document 161
Petitioner’s second Objection to the R&R is based on his allegation that he did not
have access to the documents relied on by Magistrate Judge Carlson’s R&R, specifically
Document 161. (Doc. 171, at 2-3). Petitioner additionally claims that through “government
inference [sic] his legal documents were searched and a few weeks later relator discovered

8

Case 3:15-cv-02047-RDM Document 194 Filed 07/09/20 Page 9 of 32

several missing Legal Documents that included this over (100) pages of Superior Court
Appellate Brief." (Id. at 3).
Petitioner has no relevant legal basis for this Objection. The referenced document is
the entirety of the Pennsylvania Superior Court’s docket of Petitioner’s PCRA claim-a public
record that the Court is entitled to review. (See Docs. 160-162). As this was the docket for
his own PCRA Petition, Petitioner would have had access to it in the same way that he has
access to the docket in this case. Petitioner's unsubstantiated claim that his 100-page brief
that he submitted to the Superior Court was apparently confiscated is simply irrelevant.
Petitioner’s second Objection is overruled.
C. Objection 3: Lack of Counsel in Federal Habeas Proceedings
Petitioner’s third Objection is based on his lack of counsel. (Doc. 171, at 4-5).
Petitioner argues that due to the complexity of his habeas petition he should be appointed
counsel. (Id.). As has been explained in response to Petitioner’s eight previous motions to
appoint counsel, he is not entitled to appointed counsel. (See Case No. 3:15-CV-2047
Docs. 10,21,43,68,85,97,145; Case No. 3:16-CV-2455, Doc. 15).
It is well-established that prisoners do not have a constitutional right to counsel in
habeas corpus proceedings. Coleman v. Thompson, 501 U.S. 722,755,111 S. Ct. 2546
2567,115 L. Ed. 2d 640 (1991); Pennsylvania v. Finley, 481 U.S. 551,555,107 S. Ct. 1990
1993,95 L. Ed. 2d 539 (1987). The Court may, in its discretion, appoint counsel to a
financially eligible person who is seeking habeas relief if “the interests of justice so require."

9

Case 3:15-cv-02047-RDM Document 194 Filed 07/09/20 Page 10 of 32

18 U.S.C. § 3006A(a)(2)(B). The Third Circuit has stated, “As a threshold matter, a district
court must assess whether the claimant’s case has some arguable merit in fact and law.”
Montgomery v. Pinchak, 294 F.3d 492,499 (3d Cir. 2002). If the case has merit, the Court
must analyze a list of other factors, including:
1. the claimant’s ability to present his or her own case;
2. the difficulty of the particular legal issues;
3. the degree to which factual investigation will be necessary and the ability of
the claimant to pursue investigation;
4. the claimant's capacity to retain counsel on his or her own behalf;
5. the extent to which the case is likely to turn on credibility determinations; and
6. whether the case will require testimony from expert witnesses.
Id. (quoting Tabron v. Grace, 6 F.3d 147,155-57 (3d Cir. 1993).
As demonstrated in the R&R, Begnoche’s Petitions at issue do not have merit. (See
generally Doc. 163). Assuming only for the purposes of analysis that the Petition has merit
Petitioner has not demonstrated any circumstances that justify appointing counsel. (See
Doc. 171, at 4-5). Petitioner was capable of litigating his claim pro se as he demonstrated
by representing himself throughout his multiple PCRA cases. (See generally Doc. 161). He
also was able to timely file his initial federal habeas petition and set forth the grounds for
relief. (See Doc. 1). Moreover, his petition did not present complex factual or legal issues.
Petitioner was familiar with the facts of his case, had the ability to investigate any facts
despite his incarceration, and the issues presented did not require expert testimony.
Petitioner has not presented any grounds to show he was prejudiced by prosecuting
this case on his own. Therefore, Petitioner’s third Objection is overruled.

10

Case 3:15-cv-02047-RDM Document 194 Filed 07/09/20 Page 11 of 32

D. Objection 4: Speed of R&R Decision
Petitioner's fourth Objection relates to the speed at which Magistrate Judge Carlson
wrote the R&R. (Doc. 171, at 5-9). Petitioner alleges that Magistrate Judge Carlson ordered
the Superior Court’s record be filed on April 22, 2019 and his R&R was filed on April 25,
2019. (Id. at 5). Petitioner claims Magistrate Judge Carlson could not have reviewed the
record and written the R&R in such a short time period, (id. at 6).
The Court finds Magistrate Judge Carlson’s R&R is thorough, analytically sound and
indicative of the Magistrate Judge’s consideration of the state court proceedings.
Petitioner’s fourth Objection has no merit.
E. Objections 5 and 7: Brady Violations
Petitioner’s fifth and seventh Objections are both related to Petitioner’s
unsubstantiated allegation that the Government deliberately destroyed exculpatory evidence
(Doc. 171, at 9-10) and covered up the destruction of such evidence (Id. at 19-28). The
Court assumes Petitioner is attempting to assert a Brady violation. See Brady v. Maryland,
373 U.S. 83,86, 83 S.Ct. 1194,1196,10 L.Ed.2d 215 (1963). These Brady Objections will
be addressed together. As explained in the R&R, these arguments were not raised in his
PCRA petition and are therefore not exhausted.
An application for a writ of habeas corpus pursuant to Section 2254 will not be
granted unless “the applicant has exhausted the remedies available in the courts of the
State.” 28 U.S.C. § 2254(b)(1)(A). The exhaustion requirement allows the State “the

1!

Case 3:15-cv-02047-RDM Document 194 Filed 07/09/20 Page 12 of 32

opportunity to pass upon and correct alleged violations of its prisoners’ federal rights."
Baldwin v. Reese, 541 U.S. 27,29,124 S.Ct. 1347,1349,158 L.Ed.2d 64 (2004). In order
to satisfy the exhaustion requirement, the claims included in the habeas petition must be
“fairly presented" to the state courts. Picard v. Connor, 404 U.S. 270, 275,92 S.Ct. 509
512,30 LEd.2d 438 (1971). To “fairly present" a claim, a petitioner must present its “factual
and legal substance to the state courts in a manner that puts them on notice that a federal
claim is being asserted." McCandless v. Vaughn, 172 F.3d 255,261 (3d Cir. 1999). Only
claims that are the “substantial equivalent” of those presented in state courts are exhausted.
Coifins v. Sec’y of Pennsylvania Dep'f of Corn, 742 F.3d 528,543 (3d Cir. 2014) “The
habeas petitioner bears the burden of proving that he has exhausted available state
remedies.” Touison v. Beyer, 987 F.2d 984,987 (3d Cir. 1993). Habeas petitions that
present both exhausted and unexhausted claims must be dismissed. Rose, 455 U.S. at 515;
but see Rhines, 544 U.S. at 278,125 S.Ct. 1528 (noting an exception if the district court
issues a stay of the proceedings to allow a petitioner to exhaust his claim in state court).
Relatedly, the failure to exhaust a federal claim in the state appellate courts bars the
consideration of that claim in federal court by means of habeas corpus because it has been
procedurally defaulted. Cristin v. Brennan, 281 F.3d 404,410 (3d Cir. 2002). The doctrine of
procedural default bars federal habeas relief when “a state court declined to address a
prisoner’s federal claims because the prisoner had failed to meet a state procedural
requirement." Coleman, 501 U.S. at 730,111 S. Ct. 2546. The failure to present federal

12

Case 3:15-cv-02047-RDM Document 194 Filed 07/09/20 Page 13 of 32

habeas claims to the state courts in a timely fashion will result in a procedural default.
O'Sullivan v. Boerckeh 526 U.S. 838,848,119 S.Ct. 1728,1734,144 L.Ed.2d 1 (1999).
Petitioner entered a plea of nolo contendere in December 2011. He did not take a
direct appeal from that plea sentence, but did file a PCRA petition in state court on
November 8, 2012. In his state PCRA petition, Petitioner only raised the following four
claims; (1) a vague claim that his constitutional rights were violated, (2) an ineffective
assistance of counsel claim, (3) a claim that his plea was involuntary, and (4) a claim that
his pro se work product was seized while he was incarcerated in Connecticut. (Mem. Order,
Ct. Common Pleas, Doc. 161, at 478-81). This means that most of the two dozen claims in
his federal habeas petition are both unexhausted and procedurally defaulted as they were
never fairly presented to the state courts. This includes Petitioner’s claims that the
government intentionally destroyed exculpatory evidence and attempted to cover it up.
Petitioner did not present this claim or any claim that could be considered its substantial
equivalent in his state PCRA petition. He also did not take a direct appeal so these claims
were never fairly presented to the state courts at any point. Therefore, Petitioner’s claims
regarding the destruction of exculpatory evidence are not exhausted.
In addition to the claims being exhausted, Petitioner has procedurally defaulted
these claims. In order to assert a collateral attack on a conviction in Pennsylvania, a
petitioner must file for PCRA relief within one year of the date the judgment becomes final.
42 Pa.Cons.Sta. § 9545(b)(1). Petitioner’s judgment became final on January 4,2012 when

13

Case 3:15-cv-02047-RDM Document 194 Filed 07/09/20 Page 14 of 32

the time to seek direct review expired. (See, e.g., Doc. 161, at 149). The Petitioner may not
now, eight years later, raise these issues in a state PCRA petition. (See supra note 2).
Therefore, these two Brady claims are procedural^ defaulted.
Moreover, these claims are not cognizable because Petitioner waived them when he
entered a plea of nolo contendere in 2011. (See Written Colloquy, Doc. 161, at 146-50; Tr.
Plea and Sentencing, Doc. 162).
Under Pennsylvania law, a guilty plea “constitutes a waiver of all nonjurisdictional
defects and defenses.” Com. v. Jones, 593 Pa. 295,308,929 A,2d 205,212 (2007)(quoting
Com. v. Montgomery, 485 Pa. 110,401 A.2d 318,319 (1979). The Third Circuit has
similarly noted, “It is well established that a criminal defendant’s unconditional, knowing and
voluntary plea of guilty waives all non-jurisdictional issues.” Washington v. Sobina, 475 F.3d
162,165 (3d Cir. 2007). “In terms of its effect upon a case, a plea of nolo contendere is
treated the same as a guilty plea." Com. v. Lewis, 791 A.2d 1227,1230 (2002); see also
United States v. Adedoyin, 369 F.3d 337,344 (3d Cir. 2004)(“[A] plea of nolo contendere
has the same legal consequences as a plea of guilty and results in a conviction.”). Similar to
a defendant who pleads guilty, “a defendant who pleads nolo contendere waives all defects
and defenses except those concerning the jurisdiction of the court, legality of sentence, and
validity of plea.” Com. v. Kraft, 1999 Pa. Super 231,739 A.2d 1063,1064(1999).
A Brady violation is not a jurisdictional issue, and therefore, would be waived when a
defendant enters a plea of guilty. See Toiiett v. Henderson, 411 U.S. 258, 267,93 S. Ct.
14

Case 3:15-cv-02047-RDM Document 194 Filed 07/09/20 Page 15 of 32

1602,1608,36 L. Ed. 2d 235 (1973)("When a criminal defendant has solemnly admitted in
open court that he is in fact guilty...he may not thereafter raise independent claims relating
to the deprivation of constitutional rights that occurred prior to the entry of the guilty plea.”).
As long as Petitioner’s nolo contendere plea was unconditional, knowing and
voluntary, Petitioner waived all non-jurisdictional issues, including alleged Brady violations
when he entered his plea in 2011. Petitioner cannot successfully challenge the validity of his
plea in this case.

.

A habeas petitioner seeking to challenge the voluntary nature of his plea “faces a
heavy burden." Lesko v. Lehman, 925 F.2d 1527,1537 (3d Cir. 1991). A state court’s
conclusion regarding the voluntary nature of a plea is "entitled to a presumption of
correctness." Siers v. Ryan, 773 F,2d 37,42 (3d Cir. 1985)(citing 28 U.S.C. § 2254(d)).
The Dauphin County Court of Common Pleas and the Pennsylvania Superior Court
both held that Petitioner’s plea was unconditional, knowing and voluntary. (See Mem. Order,
Ct. Common Pleas, Doc. 161, at 481-83; Com. v. Begnoche, No. 286 MDA 2014,2015 WL
7587202, at *2 (Pa. Super. Ct. Feb. 5,2015)). These findings are presumed to be correct.
The voluntary nature of Petitioner’s plea is demonstrated through his written plea
and his sworn plea colloquy in front of the court. (See Written Plea, Doc. 161, at 146-50; Tr.
Plea and Sentencing, Doc. 162). During the sworn plea colloquy, the Commonwealth read
the essential terms of the plea agreement. (Tr. Plea and Sentencing, Doc. 162, at 2:8-25).
Petitioner testified he reviewed the agreement with counsel, he understood the charges he

15

Case 3:15-cv-02047-RDM Document 194 Filed 07/09/20 Page 16 of 32

was facing and all the terms of the agreement, and had no questions about the agreement.
(Id. at 3:15-4:6). Petitioner further testified that he understood the constitutional rights
including appellate rights, that he would be relinquishing:
MS. TAYLOR: And, sir, you understand by pleading no contest today you’re
giving up certain constitutional rights, including your right to have a trial, to call
witnesses, to hear the Commonwealth’s witnesses, to decide whether you,
yourself, wanted to testify. You certainly wouldn't be required to.
By pleading no contest we won’t have a trial and you’ll be entering your plea
today. Do you understand those things?
THE DEFENDANT: Yes.
MS. TAYLOR: You understand that you’re also severely limiting your appellate
rights?
THE DEFENDANT: Yes.
MS. TAYLOR: On the third page of this document, is this your signature?
THE DEFENDANT: Yes.
MS. TAYLOR: Do you have any questions about this form or the negotiated
plea agreement as I’ve outlined it for the Court?
THE DEFENDANT: No.
(Id. at 4:7-5:1).
After listening to the Commonwealth’s recitation of the evidence against him, the
Petitioner entered a plea of uNo contest." {id. at 5:2-23). The Court, then, ensured the
Petitioner understood the no contest plea would be treated as a guilty plea:
THE COURT: Just some questions. Sir, do you understand that when you
plead no contest to a charge you are, in essence, conceding, agreeing that if
the case went to trial there would be sufficient evidence to prove you’re guilty
beyond a reasonable doubt. Do you understand that?
THE DEFENDANT: Yes, Your Honor.
THE COURT: And do you understand that when you plead no contest, for
sentencing purposes I must treat that just as if you plead guilty. Do you
understand that?
THE DEFENDANT: Yes, Your Honor.

16

Case 3:15-cv-02047-RDM Document 194 Filed 07/09/20 Page 17 of 32

THE COURT: And you understand that when you plead no contest it's a
conviction on your record just as if you had plead guilty. Do you understand
that?
THE DEFENDANT: Yes, Your Honor.
THE COURT: And do you also understand that when you plead no contest it is
a conviction and it counts toward any prior record score for crimes committed
in the future. Do you understand that?
THE DEFENDANT: Yes, Your Honor.
[Id. at 6:1-20).
The following exchange occurred between the Court and Petitioner, further
confirming the voluntary nature of Petitioner’s plea:
THE COURT: Very well. Okay. All right, sir. You have the opportunity to speak
prior to sentencing. Is there anything you wish to say?
THE DEFENDANT: I just want to say, Your Honor, a lot of collateral damaged
[sic] occurred to this, and I made a lot of mistakes but they didn’t sum up to the
inflammatory allegations. That’s why I really requested the nolo plea.
And I could never put my daughter on the stand to be in front of the Court to
have to deal with all this and sort it out in public. And I—that’s the reason I'm
taking a plea like that, because I’m not dealing with everybody going through
more hell. There’s enough collateral damage. I have three children in school,
in college that I was very successful with. And I do not—
THE COURT: All right, sir. Let’s—let’s go back. Let’s discuss this. Let's make
it perfectly clear, That if you plead nolo contendere, if you plead no contest you
are agreeing—
THE DEFENDANT: Yep.
THE COURT:—that if the case went to trial the Commonwealth would be able
to prove you’re guilty beyond a reasonable doubt. Do you understand that?
THE DEFENDANT: Yes, Your Honor.
THE COURT: All right. Very well. And do you think it's in your best interest to
plead no contest to this charge?
THE DEFENDANT: Yes, Your Honor.
THE COURT: And you realize that you’re getting a sentence of 10 to 20 years?
THE DEFENDANT: Yes, Your Honor.
THE COURT: And you are doing this voluntarily and of your own free will?
THE DEFENDANT: Yes, Your Honor.

17

Case 3:15-cv-02047-RDM Document 194 Filed 07/09/20 Page 18 of 32

THE COURT: And you’ve had an opportunity to discuss this with Mr. Muller,
your attorney?
THE DEFENDANT: Yes.
THE COURT: And it’s your decision to still enter the no contest plea in this
case?
THE DEFENDANT: Yes, Your Honor.
(id. at 7:16-9:1). In specifically explaining that he was choosing to enter a plea of nolo
contendere in order to prevent his daughter from testifying in court, Petitioner proved that he
understood the plea colloquy and that he entered his plea voluntarily.
As the state courts and the R&R concluded, these proceedings confirm that
Petitioner’s plea was unconditional, knowing and voluntary. (See Mem. Order, Ct. Common
Pleas, Doc. 161, at 481-83; Com. v. Begnoche, No. 286 MDA2014,2015 WL 7587202, at
*2 (Pa. Super. Ct. Feb. 5, 2015); R&R, Doc. 163, at 33-39). Therefore, the Brady violations
that Petitioner seeks to assert were waived when he entered a plea of nolo contendere.
Petitioner’s fifth and seventh Objections will be overruled.
F. Objection 6: Insufficient Evidence
Petitioner’s sixth Objection alleges that there was insufficient evidence to support his
conviction. (Doc. 171, at 11-19). To the extent that this Objection attempts to assert a Brady
violation, the Court has already explained that such a claim is unexhausted and waived.
(See supra). To the extent that the Petitioner intended to raise a separate claim, the Court
will address that claim below.
Petitioner's claim regarding the weight and sufficiency of the evidence used to
convict him is unexhausted and procedural^ defaulted. In his state PCRA petition
*

18

Case 3:15-cv-02047-RDM Document 194 Filed 07/09/20 Page 19 of 32

Petitioner only raised the following four claims: (1) a vague violation of his constitutional
rights, (2) ineffective assistance of counsel, (3) involuntary plea, and (4) seizure of pro se
work product. (Mem. Order, Ct. Common Pleas, Doc. 161, at 478-81). None of the four
claims presented to the state courts is the substantial equivalent of a claim that the
conviction was unsupported by sufficient evidence. As discussed supra it is now too late for
Defendant to raise this claim in state court in a state PCRA petition, so it is also procedurally
defaulted.
Petitioner’s claim that there was insufficient evidence to convict him was additionally
waived when he entered a plea of nolo contendere. United States v. McGill, 128 F. Supp. 3d
863,868 (E.D. Pa. 2015)("By entering a nolo plea, a defendant waives any procedural rights
that have a ‘direct connection to the determination of [the] defendant’s guilt or innocence.”’).
As explained supra, when asked if he understood that his plea meant he conceded that
there was sufficient evidence to prove guilt beyond a reasonable doubt, Petitioner replied
"Yes, Your Honor." (Doc. 162, at 6:1-7). The Court even asked Petitioner a second time
"Let’s make it perfectly clear. That if you plead nolo contendere, if you plead no contest you
are agreeing...that if the case went to trial the Commonwealth would be able to prove you’re
guilty beyond a reasonable doubt. Do you understand that?" {Id. at 8:2-9). The Petitioner
again said, "Yes, Your Honor." (Id. at 8:10).
Therefore, Petitioner’s sixth objection is unexhausted, procedurally defaulted, and
has already been waived.

19

Case 3:15-cv-02047-RDM Document 194 Filed 07/09/20 Page 20 of 32

G. Objections 8 and 9: Alibi
In Petitioner’s eighth and ninth Objections, he attempts to relitigate his conviction by
presenting an alleged alibi. (Doc. 171, at 28-40). Petitioner argues that on the date of the
offense listed on the arrest warrant-January 5,2005—he was incarcerated in Connecticut.
(Id. at 28). Petitioner argues that his defense was prejudiced by an “unreasonable departure
from charging language" because the alleged dates of the offenses were later changed to
“on or about October 2005 through October 2009.” (Id. at 32).
For the same reasons as Petitioner’s previous Objections, these Objections are
unexhausted, procedurally defaulted and waived by Petitioner’s nolo contendere plea.
None of the four claims fairly presented to the state courts is the substantial
equivalent of Petitioner’s alibi. (See Mem. Order, Ct. Common Pleas, Doc. 161, at 478-81).
As discussed supra it is now too late for Defendant to raise this claim in state court in a
state PCRA petition, so it, too, is procedurally defaulted.
Furthermore, as a non-jurisdictional issue, Petitioner’s claim regarding the dates on
the arrest warrant and the indictment was waived when he entered a plea of nolo
contendere. As explained supra, when Petitioner was asked if he conceded that there was
sufficient evidence to prove he was guilty beyond a reasonable doubt, Petitioner replied in
the affirmative, twice. (Doc. 162, at 6:1*7; 8:2-10). Petitioner never mentioned this alleged
alibi during his plea colloquy, in a direct appeal, or in his state PCRA petitions. (See
generally Tr. Plea and Sentencing, Doc. 162; Mem. Order, Ct. Common Pleas, Doc. 161, at

20

Case 3:15-cv-02047-RDM Document 194 Filed 07/09/20 Page 21 of 32

477-87; Com. v. Begnoche, No. 286 MDA 2014,2015 WL 7587202, at *1 (Pa. Super. Ct.
Feb. 5,2015)). Petitioner’s alleged alibi especially lacks credibility in light of the knowing
and voluntary nature of his initial plea of no contest This is not a case where new
exculpatory evidence has come to light; Petitioner would have had knowledge of the
underlying facts of his alleged alibi before entering his no contest plea. He did not present
this defense at that time and the Court will not evaluate the merits of it now.
Therefore, Petitioner’s eighth and ninth Objections are overruled because Petitioner
failed to exhaust, the claims are procedural^ defaulted, and the Petitioner waived them
when he entered a plea of no contest.
H. Objection 10; Unlawful Extradition
Petitioner’s tenth Objection presents five arguments in response to Magistrate Judge
Carlson's analysis of Petitioner’s claim that his extradition from Connecticut to Pennsylvania
violated his constitutional rights: (1) Petitioner presented a timely challenge to extradition,
(2) his counsel refused to challenge the extradition or the government’s alleged interference
in his challenge to the extradition, (3) he had an alibi for the date of the offense listed on the
arrest warrant, (4) the date of the offense on the arrest warrant did not match the date of the
offense on the indictment, and (5) his counsel was ineffective as he refused to challenge his
extradition as illegal kidnapping. (Doc. 173, at 40-55).

21

Case 3:15-cv-02047-RDM Document 194 Filed 07/09/20 Page 22 of 32

Petitioner presents no credible basis to support his conclusion that his extradition
was tantamount to kidnapping. (See id.). Legal precedent establishes that Petitioner’s
attempt to set aside his conviction is meritless.
Illegal extradition is not recognized as a ground for habeas corpus relief. U.S. ex rel.
Owens v. Russell, 260 F. Supp. 638,638 (M.D. Pa. 1966); U.S. ex rel. Kelly v. Fullamt 224
F. Supp. 492,494 (E.D. Pa. 1963). The Supreme Court has held, "[T]he power of a court to
try a person for crime is not impaired by the fact that he had been brought within the court’s
jurisdiction by reason of a forcible abduction.” Frisbie v. Collins, 342 U.S. 519,522,72 S. Ct.
509,511,96 L. Ed. 541 (1952); see also Shack v. Warden ofGraterford Prison, 593 F.
Supp. 1329,1331 (E.D. Pa. 1984), affdsubnom. Shack v. Attorney Gen. ofStateof
Pennsylvania, 776 F.2d 1170 (3d Cir. 1985)(“Supreme Court and Third Circuit precedents
establish that illegal extradition does not deprive the receiving sovereign of personal
jurisdiction over criminal defendants so transmitted.”). Due process of the law is satisfied
when the defendant is fairly apprised of the charges against him and is afforded a fair trial.
Frisbie, 342 U.S. at 522,72 S. Ct. 509. “There is nothing in the Constitution that requires a
court to permit a guilty person rightfully convicted to escape justice because he was brought
to trial against his will." Id.
Petitioner was not denied due process of the law during his prosecution in
Pennsylvania. He knew of the charges against him and entered an unconditional, knowing
and voluntary plea of no contest to those charges. (See Tr. Plea and Sentencing, Doc. 162).
22

Case 3:15-cv-02047-RDM Document 194 Filed 07/09/20 Page 23 of 32

The Magistrate Judge correctly found Petitioner cannot overturn his conviction now because
he was brought to trial against his will. Petitioner's tenth Objection is overruled.
I. Objections 11,12,13,14: Ineffective Assistance of Trial Counsel and PCRA Counsel
Petitioner’s eleventh, twelfth, thirteenth, and fourteenth Objections all relate to his
claim that he had ineffective assistance of counsel at the trial level and when filing his state
PCRA petitions. Petitioner cannot meet the high standard required to prove his Sixth
Amendment rights were violated.
In order to state a claim for ineffective assistance, the defendant must show: (1) the
defense counsel’s performance was deficient and (2) the deficient performance prejudiced
the defense. Strickland v. Washington, 466 U.S. 668,687,104 S.Ct. 2052,2064,80
L.Ed.2d 674 (1984). See Werts v. Vaughn, 228 F.3d 178, 203 (3d Cir. 2000)(“[T]he ■
Pennsylvania standard judging ineffectiveness claims was identical to the ineffectiveness
standard enunciated by the United States Supreme Court in Strickland”). The Supreme
Court has held that the Strickland test applies to challenges to guilty pleas based on
ineffective assistance of counsel. Hill v. Lockhart, 474 U.S. 52, 58,106 S.Ct. 366,370,88
L.Ed.2d 203 (1985). To show a counsel's performance was deficient, the petitioner must
show counsel's representation fell below an objective standard of reasonableness.
Strickland, 466 U.S. at 687,104 S.Ct. 2052. In a case where a petitioner is seeking to
challenge his plea, in order to prove prejudice the petitioner must show that “there is a

23

Case 3:15-cv-02047-RDM Document 194 Filed 07/09/20 Page 24 of 32

reasonable probability that, but for counsel’s errors, he would not have pleaded guilty and
would have insisted on going to trial.'’ Hill, 474 U.S. at 59,106 S. Ct. 366.
A defendant seeking to prove his attorney's performance was deficient faces a heavy
burden as the Court “must indulge a strong presumption that counsel’s conduct falls within
the wide range of reasonable professional assistance.” Strickland, 466 U.S. at 689,104 S.
Ct. 2052. “Strickland and its progeny make clear that counsel's strategic choices will not be
second-guessed by post-hoc determinations that a different trial strategy would have fared
better.” Rolan v. Vaughn, 445 F.3d 671,681-82 (3d Cir. 2006); see also Strickland, 466
U.S. at 690,104 S.Ct. 2052 (“[Strategic choices made after thorough investigation of law
and facts relevant to plausible options are virtually unchallengeable").
If a petitioner cannot prove one of the prongs, the petitioner’s ineffective assistance
claim must fail. Strickland, 466 U.S. at 687,104 S.Ct. 2052 (“Unless a defendant makes
both showings, it cannot be said that the conviction...resulted from a breakdown in the
adversary process that renders the result unreliable.").
Petitioner contends that his trial counsel’s performance was deficient in a number of
ways, including: counsel refused to withdraw Petitioner's no contest plea after sentencing
(Doc. 171, at 56,91); counsel did not file a direct appeal (Id. at 56,91-92); counsel did not
inform him about the burdens placed on the Commonwealth in a criminal trial (Id. at 65,9091); counsel told him he would only receive one plea agreement, forcing him to accept the
agreement (Id. at 66); counsel withheld evidence of malicious prosecution (Id. at 67);

24

Case 3:15-cv-02047-RDM Document 194 Filed 07/09/20 Page 25 of 32

counsel allowed too many continuances by the Commonwealth, violating his right to a
speedy trial [Id. at 68); counsel refused to postpone the trial after Petitioner told counsel that
counsel was unprepared for trial and his parents would not have time to travel from
Connecticut to Pennsylvania {Id. 86-87); counsel refused to challenge his extradition {Id. at
69-70); counsel refused to file a motion to dismiss all charges {Id. at 71); and counsel
colluded with the government in withholding exculpatory evidence pertinent to his state
PCRA petition {Id. at 94).
Petitioner’s claims that counsel forced him into an unknowing or involuntary plea
without discussing his rights can be summarily rejected. As discussed supra, Petitioner's
plea was found to be unconditional, knowing and voluntary. Petitioner signed a written "Nolo
Contendere Colloquy," which informed Petitioner of all the rights afforded to criminal
defendants at trial, the burden that is placed upon the prosecution, and that his plea would
waive all of his trial rights. (Doc. 161, at 146-149). Petitioner’s written colloquy affirms, 1
have discussed my case with my attorney and am satisfied with his representation in these
proceedings." {Id. at 148). By signing this colloquy, Petitioner agreed, “I have read the
above document in its entirety and I Understand its full meaning," and “! am satisfied that my
plea is voluntarily made and in my best interests, and am therefore entering my plea of no
contest." {Id. at 148). In addition, when Petitioner entered a plea of no contest in court,
Petitioner testified he reviewed the agreement with counsel, he understood the charges he
was facing and all the terms of the agreement, and had no questions about the agreement.

25

Case 3:15-cv-02047-RDM Document 194 Filed 07/09/20 Page 26 of 32

(Tr. Plea and Sentencing, Doc. 162, at 3:15-4:6). Petitioner further testified he understood
the rights that he would be waiving and that his plea was entered “voluntarily and of [his]
own freewill." (Id. at 4:7-5:1; 7:16-9:1).
Many of Petitioner’s claims fail the first prong of the Strickland test because
counsel’s performance was within the wide range of reasonable professional assistance. All
of the following claims made by Petitioner are related to counsel’s trial strategy: the
suggestion Petitioner accept a plea agreement (Doc. 171, at 66), the decision not to present
alleged evidence of malicious prosecution (Id. at 67) or illegal extradition (Id. at 69-70)
concurring with requests for continuances (Id. at 68), the decision to not seek postponement
of the trial (Id. 86-87), and the decision not to move to dismiss all charges (Id. at 71). When
evaluating strategy, the Court must presume that counsel’s conduct falls within the wide
range of reasonable professional assistance; the burden is on the petitioner to prove
otherwise. Strickland, 466 U.S. at 690,104 S.Ct. 2052; Rolan, 445 F.3d at 681-82.
Petitioner has presented no credible assertion that these decisions made by counsel are
objectively unreasonable. Moreover, Petitioner cannot claim his Sixth Amendment rights
were violated because counsel failed to pursue meritless defenses. United States v.
Sanders, 165 F.3d 248, 253 (3d Cir. 1999). None of these vague contentions can support
Petitioner’s ineffective assistance of counsel claim.
Petitioner also cannot credibly claim that his counsel was ineffective because he did
not seek a direct appeal. Counsel’s advice not to seek a direct appeal is objectively

26

Case 3:15-cv-02047-RDM Document 194 Filed 07/09/20 Page 27 of 32

reasonable considering: the Petitioner limited his appellate rights when he entered a plea of
nolo contendere. (See Written Colloquy Doc. 161, at 147 (“I understand that when anyone
pleads no contest, the only things that can be raised on appeal are the voluntariness of the
plea, the jurisdiction of this court to hear the plea, and the legality of whatever sentence is
imposed.”); Tr. Plea and Sentencing, Doc. 162, at 4:7—5:1 (“MS. TAYLOR; You understand
that you’re also severely limiting your appellate rights? THE DEFENDANT: Yes.”)).
Therefore, Petitioner has not met his burden to prove that counsel’s performance was
deficient.
Moreover, none of Petitioner’s countless allegations regarding the ineffective
assistance of counsel satisfies the second prong of the Strickland test. In order to satisfy the
prejudice prong, Petitioner would have to show a reasonable probability that, but for
counsel’s errors, he would not have pleaded guilty and would have insisted on going to trial.
Hill, 474 U.S. at 59,106 S. Ct. 366.
When Petitioner entered his plea, he testified under oath:
. And I could never put my daughter on the stand to be in front of the Court to
have to deal with all this and sort it out in public. And I—that’s the reason I’m
taking a plea like that, because I’m not dealing with everybody going through
more hell. There’s enough collateral damage.
(Tr. Plea and Sentencing, Doc. 162, at 7:20-24).
As Magistrate Judge Carlson emphasized, Petitioner’s statement that he would not
want to put his daughter through a trial proves “the decision to plead was based upon

27

■ Case 3:15-cv-02047-RDM Document 194 Filed 07/09/20 Page 28 of 32

considerations that were entirely independent of counsel’s advice or performance." (Doc.
163, at 42). Petitioner cannot demonstrate his counsel’s performance caused him prejudice.
Petitioner has not met his burden to prove either prong of the Strickland test and
therefore his ineffective assistance of trial counsel claim was correctly denied by the
Magistrate Judge.
Petitioner next claims that he was not provided PCRA counsel and his PCRA
counsel provided him ineffective assistance of counsel. (Doc. 171, at 56-58, 94-97). The
Court initially notes that Petitioner's claim that he was not appointed PCRA counsel is
categorically untrue and contradicts his own contention that his PCRA counsel was
ineffective. (See Entry of Appearance, Doc. 161, at 356; Pet. to Withdraw as Counsel, Doc.
161, at 365; Order Granting Pet. to Withdraw, Doc. 161, at 391).
Pursuant to Section 2254, Petitioner’s allegation that his PCRA counsel was
ineffective is not cognizable, "The ineffectiveness or incompetence of counsel during
Federal or State collateral post-conviction proceedings shall not be a ground for relief in a
proceeding arising under section 2254.” 28 U.S.C. § 2254(i). See also Lambert v. Blackwell,
387 F.3d 210,247 (3d Cir. 2004)(“[H]abeas proceedings are not the appropriate forum...to
pursue claims of error at the PCRA proceeding.”); Holman v. Gillis, 58 F.Supp. 2d 587,597
(E.D. Pa. 1999)(“[A] claim of ineffective assistance of PCRA counsel is not cognizable in a
federal habeas corpus petition."). The Sixth Amendment right to counsel does not extend to

28

Case 3:15-cv-02047-RDM Document 194 Filed 07/09/20 Page 29 of 32

habeas proceedings as explained supra, Coleman, 501 U.S. at 755,111 S. Ct. 2546; Finley,
481 U.S. at 555,107 S. Ct. 1990.
The Supreme Court has qualified Coleman by recognizing a "narrow exception,”
which allows a state prisoner to establish cause for his procedural default if he had
inadequate assistance of counsel at initial-review collateral proceedings. Martinez v. Ryan,
566 U.S. 1,9,132 S.Ct. 1309,1315,182 L.Ed.2d 272 (2012). A petitioner’s procedural
default may be excused where "the state courts did not appoint counsel in the initial-review
collateral proceedings for a claim of ineffective assistance at trial” or where “appointed
counsel in the initial-review collateral proceeding...was ineffective under the standards of
StricklandId. at 14. A petitioner seeking to establish cause under Martinez must also
demonstrate the underlying ineffective assistance of trial counsel claim is a “substantial
one," or in other words that the claim “has some merit.” Id.
Here, Petitioner does not satisfy the Martinez exception. As explained supra the
underlying ineffective assistance of trial counsel claim has no merit and thus is not a
“substantial” claim. Additionally, the state did appoint PCRA counsel for Petitioner’s initialreview collateral proceedings. (See Entry of Appearance, Doc. 161, at 356). The appointed
PCRA counsel withdrew when he determined Petitioner’s claims were "meritless.” (Pet. to
Withdraw, Doc. 161, at 365-377; Order Granting Pet. to Withdraw, Doc. 161, at 391). PCRA
counsel’s decision to withdraw does not constitute a deficient performance under Strickland

29

Case 3:15-cv-02047-RDM Document 194 Filed 07/09/20 Page 30 of 32

as it was objectively reasonable. Therefore, Martinez does not apply, and Petitioner cannot
challenge his PCRA counsel's performance through his federal habeas petition.
The Magistrate Judge correctly denied this claim. Petitioner’s Objections regarding
ineffective assistance are overruled.
J. Objection 15: Judicial Bias
Petitioner’s fifteenth Objection argues the R&R should be “disregarded and stricken
from the record” due to “Magistrate Judge Carlson’s blatantly obvious Partiality toward the
respondents, and prejudice to him and his filings that can only be interpreted as gross Bias.’’
(Doc. 171-1, at 103-112). Petitioner’s bold accusations have no factual support. Magistrate
Judge Carlson’s consideration of the state court proceedings in his R&R was fair, unbiased
and comprehensive. Petitioner has suffered no prejudice as a result of Magistrate Judge
Carlson’s R&R. Petitioner’s fifteenth Objection is meritless.
K. Certificate of Appealability
The Magistrate Judge additionally recommended that a certificate of appealability
["COA”] should not issue in this case. (Doc. 163, at 51). Petitioner argues that the denial of
a COA is prejudicial. (Doc. 171-1, at 103-105).
Pursuant to Section 2253, “Unless a circuit justice or judge issues a certificate of
appealability an appeal may not be taken to the court of appeals from the final order in a
habeas corpus proceeding in which the detention complained of arises out of process
issued by a State court." 28 U.S.C. § 2253(c)(1)(A). A COA may issue “only if the applicant

30

Case 3:15-cv-02047-RDM Document 194 Filed 07/09/20 Page 31 of 32

has made a substantial showing of the denial of a constitutional right." 28 U.S.C. §
2253(c)(2). "A petitioner satisfies this standard by demonstrating that jurists of reason could
disagree with the district court’s resolution of his constitutional claims or that jurists could
conclude the issues presented are adequate to deserve encouragement to proceed further."
Miller-El v. Cockrell, 537 U.S. 322,336,123 S.Ct. 1029,1039,154 L.Ed.2d 931 (2003). A
petitioner must "prove something more than the absence of frivolity or the existence of mere
good faith on his or her part." Id. at 338(internai quotations omitted). If a district court denies
a habeas petition on procedural grounds without reaching the merits of the constitutional
claim, a COA should issue if the prisoner shows, “at least, that jurists of reason would find it
debatable whether the petition states a valid claim of the denial of a constitutional right and
that jurists of reason would find it debatable whether the district court was correct in its
procedural ruling." Slack v. McDaniel, 529 U.S. 473,484,120 S.Ct. 1595,1604,146
L.Ed.2d 542 (2000).
As to the 2015 Habeas Petition, Petitioner has failed to make a substantial showing
that he was denied a constitutional right. Jurists of reason would not find the result of this
case debatable. Petitioner has failed to present a non-frivolous claim that his constitutional
rights were denied. As explained supra, ail of his claims were merittess. Therefore, the
Magistrate Judge’s recommendation that a COA should not issue is correct.
As to the 2016 Habeas Petition, which was denied on the procedural ground that it
was filed outside of the statute of limitations, a COA should not issue. Jurists of reason

3!

Case 3:15-cv-02047-RDM Document 194 Filed 07/09/20 Page 32 of 32

would not find it debatable that a case filed one year after the expiration of the statute of
limitation should be dismissed.
III. Conclusion
For the reasons set forth above, upon de novo review of the R&R (Doc. 163), the
Court will adopt the R&R in its entirety. Petitioner failed to demonstrate that his state
conviction violated his federal constitutional rights. Both of Begnoche's petitions for a writ of
habeas corpus are denied and a certificate of appealability will not issue. A separate Order
follows.

Robert D.HVlarianf
United States District Judge

32

Case 3:15-cv-02047-RDM Document 190 Filed 07/09/20 Page lot 4

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF PENNSYLVANIA
PAUL BEGNOCHE,
Petitioner,
:
:

v.

3;15-CV-2047
(JUDGE MARIANI)

BRIAN THOMPSON, et al.,
Respondents.
MEMORANDUM
I.

Background
Petitioner Paul Begnoche (“Petitioner”), an inmate currently confined at the State

Correctional Institution at Mercer, in Mercer, Pennsylvania, filed a pro se petition for writ of
habeas corpus pursuant to 28 U.S.C. § 2254. (Doc. 1). Presently pending before the Court
is Petitioner’s eighth Motion to Appoint Counsel. (Doc. 173). For the reasons set forth
below, the Court will deny the Motion.
II.

Discussion
Although prisoners have no constitutional or statutory right to appointment of counsel

in federal habeas corpus proceedings, Coleman v. Thompson, 501 U.S. 772,752 (1991),
the Court has broad discretionary power to appoint counsel to a financially eligible habeas
petitioner if “the interests of justice so require...” 18 U.S.C. § 3006A(a)(2)1. See also

1 Any person seeking relief under 28 U.S.C. §§ 2241,2254 or 2255 may be provided counsel,
"[w]henever the United States magistrate judge or the court determines that the interests of justice so
require" and such person is “financially eligible.” 18 U.S.C. § 3006A(a)(2).

Case 3:15-cv-02047-RDM Document 190 Filed 07/09/20 Page 2 of 4

Montgomery v. Pinchak, 294 F.3d 492,499 (3d Cir. 2002); Tabron v. Grace, 6 F.3d 147,
153 (3d Cir. 1993), aff’d, 275 F.3d 33 (3d Cir. 2001). The United States Court of Appeals
for the Third Circuit has stated that appointment of counsel for an indigent litigant should be
made when circumstances indicate “the likelihood of substantial prejudice to him resulting
for example, from his probable inability without such assistance to present the facts and
legal issues to the court in a complex but arguably meritorious case.” Smith-Bey v. Petsock,
741 F.2d 22,26 (3d Cir. 1984).
The initial determination to be made by the Court in evaluating the expenditure of the
“precious commodity" of volunteer counsel is whether the case has some arguable merit in
fact or law. Montgomery, 294 F.3d at 499. If a petitioner overcomes this threshold hurdle
other factors to be examined are:
the claimant’s ability to present his or her own case;
the difficulty of the particular legal issues;
the degree to which factual investigation will be necessary and the
ability of the claimant to pursue investigation;
(4)
the claimant’s capacity to retain counsel on his or her own behalf;
(5)
the extent to which the case is likely to turn on credibility
determinations; and,
(6)
whether the case will require testimony from expert witnesses.
id. (citing Tabron, 6 F.3d at 155-57). The Third Circuit Court of Appeals added two other
(1)
(2)
(3)

factors to be taken into consideration: (1) the court’s willingness to aid the indigent party in
presenting his or her own case; and (2) the available supply of lawyers willing to accept

2

Case 3:15-cv-02047-RDM Document 190 Filed 07/09/20 Page 3 of 4

section 1915(e) requests within the relevant geographic area. See Gordon v. Gonzalez,
232 F. App’x 153 (3d Cir. 2007).
Assuming arguendo that the petition has merit, Petitioner fails to set forth any special
circumstances warranting the appointment of counsel. See Tabron, 6 F.3d at 155-56.
Petitioner bases the motion on the alleged complexity of the case, his limited knowledge of
the law, the alleged benefit to the judicial economy of the Third Circuit, the length of time
since filing his petition, his lack of court-appointed state PCRA counsel, the ineffectiveness
of his state PCRA counsel, and the prejudice he allegedly suffered due to a lack of counsel.
(Doc. 174). However, Petitioner has demonstrated he is intimately familiar with the facts of
his case and demonstrated the ability to present comprehensible arguments, even citing to
case law and law journals to support his lengthy filings. Petitioner represented himself when
litigating his PCRA petitions, even appealing the decisions to the Supreme Court of
Pennsylvania. He has also adequately represented himself in litigating his federal petition to
this point. The legal issues presented by Petitioner are not particularly complex and do not
require testimony of expert witnesses. Furthermore, despite his incarceration, investigation
of the facts does not seem beyond Petitioner’s capabilities. Moreover, the Court notes that
it does not have a large group of attorneys who would represent this action in a pro bono
capacity.

3

Case 3:15-cv-02047-RDM Document 190 Filed 07/09/20 Page 4 of 4

Based on the foregoing, it does not appear that Petitioner will suffer prejudice if
forced to prosecute this case on his own. The Court’s duty to construe pro se pleadings
liberally, Haines v. Kerner, 404 U.S. 519 (1972), Rileyv. Jeffes, 777 F.2d 143,147-48 (3d
Cir. 1985), coupled with Petitioner’s apparent ability to litigate this action, militate against the
appointment of counsel. Accordingly, the motion for appointment of counsel will be denied.
A separate Order shall issue.

/

N.

J

Robert DrMariani
United States District Judge
Dated: July

2020

i

4

Case 3:15-cv-02047-RDM Document 192 Filed 07/09/20 Page lot3

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF PENNSYLVANIA
PAULBEGNOCHE,
Petitioner,
3:15-CV-2047
(JUDGE MARIANI)

v.

BRIAN THOMPSON, et al.,
Respondents.
MEMORANDUM
Pending before the Court is Petitioner PaurBegnoche’s Motion for Reconsideration
(Doc. 181). Petitioner seeks reconsideration of the Court’s Order (Doc. 177) denying his
“Motion for Evidentiary Hearing on the Merits of the Petition Pleadings" (Doc 164). The
Court finds that Petitioner has not demonstrated a basis for reconsideration.
“The purpose of a motion for reconsideration...is to correct manifest errors of law or
fact or to present newly discovered evidence." Max’s Seafood Cafe ex re/. Lou-Ann, Inc. v.
Quinteros, 176 F.3d 669,677 (3d Cir. 1999) (quoting Harsco Corp. v. Zlotnicki, 779 F.2d
906,909 (3d Cir.1985)). A party seeking reconsideration must demonstrate at least one of
the three grounds for relief: “(1) an intervening change in the controlling law; (2) the
availability of new evidence that was not available when the court granted the motion for
summary judgment; or (3) the need to correct a clear error of law or fact or to prevent
manifest injustice." Id. (citing North River Ins. Co, v. CIGNA Reinsurance Co., 52 F.3d
1194,1218 (3d Cir. 1995)). Moreover, “motions for reconsideration should not be used to

Case 3:15-cv-02047-RDM Document 192 Filed 07/09/20 Page 2 of 3

put forward arguments which the movant... could have made but neglected to make
before judgment.” United States v. Jasin, 292 F. Supp. 2d 670,677 (E.D. Pa. 2003)
(internal quotation marks and alterations omitted) (quoting Reich v. Compton, 834 F. Supp.
2d 753,755 (E.D. Pa. 1993) rev’d in part and afFdin part on other grounds, 57 F.3d 270 (3d
Cir. 1995)). Nor should they “be used as a means to reargue matters already argued and
disposed of or as an attempt to relitigate a point of disagreement between the Court and the
litigant." Donegan v. Livingston, 877 F. Supp. 2d 212,226 (M.D. Pa. 2012) (quoting Ogden
v. Keystone Residence, 226 F. Supp. 2d 588,606 (M.D. Pa. 2002)).
Petitioner’s Motion reiterates three arguments in support of his motion for an
evidentiary hearing: he has an “alibi defense”, his claimed “actual and factual innocence,"
and “Sixth Amendment ineffective assistance of meaningful trial counsel, appellate counsel
and deliberate ‘Constructive Innefective [sic] Assisatnce [sic] of Counsel." (Doc. 181, at 34). Petitioner made all three of these arguments in his prior Motion (see Doc. 164) and is
merely seeking to reargue a matter that has already been argued and disposed of.
Petitioner does not present any basis that would support his motion for reconsideration.
Petitioner does not identify any intervening changes in controlling law, any new evidence
that was not available previously, any clear error of law or fact which must be corrected or
any manifest injustice which has, or may, arise as a result of this Court’s order.

Case 3:15-cv-02047-RDM Document 192 Filed 07/09/20 Page*3 of 3

Therefore, there is no basis for the Court to reconsider its Order denying Petitioner’s
Motion for an Evidentiary Hearing. Petitioner's Motion for Reconsideration (Doc. 181) is
denied.

i

Robert'DrMariani
United States District Judge

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 1 of 52

UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF PENNSYLVANIA
Civil No. 3:15-CV-2047

PAUL BEGNOCHE,
Petitioner

(Judge Mariani)
v.
(Magistrate Judge Carlson)
BRIAN THOMPSON, et al.,
Respondents
Civil No. 3:16-CV-2455

PAUL BEGNOCHE,
Petitioner

(Judge Mariani)
v.
(Magistrate Judge Carlson)
BRIAN THOMPSON, et al.,
Respondents

REPORT AND RECOMMENDATION
1.

Introduction
These two cases are federal habeas corpus petitions brought by a state

prisoner. These habeas corpus petitions arise out of Begnoche’s conviction in state
court on charges relating to the sexual exploitation of his own daughter, who was
between seven and ten years old at the time that she was victimized by Begnoche.
l

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 2 of 52

While Begnoche now wishes to contest these charges, when afforded that
opportunity to contest these allegations in state court Begnoche elected to enter a no
contest plea. As the Pennsylvania Superior Court explained in its decision affirming
the denial of state post-conviction relief for Begnoche:
In 2010, [Begnoche] was arrested and charged with the following: Rape
of a Child Under 13 Years of Age, Involuntary Deviate Sexual
Intercourse with a Child Under 13 Years of Age, Statutory Sexual
Assault, Incest, Indecent Assault—Person Under 13 Years of Age,
Unlawful Contact or Communication with a Minor. [The charges arose
out of Begnoche's assaults of his daughter, who was between seven and
ten years old at the time of the incidents.] On December 5, 2011, []
Begnoche entered a negotiated plea of nolo contendere to all charges,
and on the same day[,] he was sentenced to an aggregate term of
incarceration of ten (10) to twenty (20) years[,] followed by a
consecutive term of ten (10) years’ probation[,] along with payment of
costs of prosecution and fines totaling $5,500. An Order was entered
on April 2, 2012[,] classifying [Begnoche] as a Sexually Violent
Predator [“SVP”]. No direct appeal was taken.
Commonwealth v. Begnoche, No. 286 MDA 2014, 2015 WL 7587202, at *1 (Pa.
Super. Ct. Feb. 5, 2015). Rebuffed by the state courts in his post-conviction efforts
to contest the charges as to which Begnoche had pleaded no contest, the petitioner
filed two petitions for writ of habeas corpus with this court.
In his petitions, Begnoche raises more than two dozen grounds for habeas
corpus relief. Begnoche’s petitions, and his subsequent filings, reveal that many of
Begnoche’s claims rest upon his own idiosyncratic views regarding the law. For
example, at various times, Begnoche has repeatedly insisted that this arrest and
2

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 3 of 52

extradition amounted to a kidnapping in violation of federal law, and has argued that
the Pennsylvania courts therefore lacked personal and subject matter jurisdiction
over him.
As a result of Begnoche’s eccentric approach to these habeas corpus petitions,
the course of this litigation has been both painful and protracted. The principal agent
of confusion and delay in this litigation has been Begnoche, who has filed multiple
prolix motions advancing his novel legal theories. Thus, over the past three years,
Begnoche has repeatedly moved for the entry of default judgment, summary
judgment, and for reconsideration or clarification based upon these idiosyncratic
legal theories. For its part, the district court, Conaboy, J., patiently responded to this
bewildering array of motions, consistently endeavoring to explain to Begnoche the
fundamental nature of habeas corpus proceedings and identifying why his many
requests were procedurally and substantively inappropriate.
Displeased with these rulings, Begnoche has twice unsuccessfully pursued
interlocutory appeals of these district court decisions, and has on three separate
occasions attempted to compel the district court to order his release through the filing
of motions for writs of mandamus.
It is against this procedural backdrop that we now consider the merits of the
various claims advanced by Begnoche to set aside his own no contest plea to these
3

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 4 of 52

sexual abuse charges involving the exploitation of a child. For the reasons set forth
below, we find that many of Begnoche’s claims are unexhausted, procedurally
defaulted or time-barred. Moreover, these claims lack substantive merit and provide
no grounds for setting aside these convictions. Accordingly, it is recommended that
these petitions be denied.
II.

Statement of Facts and of The Case
The criminal sexual abuse of a child which led to Paul Begnoche’s prosecution

and conviction first came to light in the Fall of 2009. At that time Begnoche lived in
Connecticut, but would travel to the Harrisburg area periodically to stay with a
woman who had been an intimate partner and with the victim, a daughter that
Begnoche had fathered with this woman.
In the Fall of 2009, Begnoche’s daughter made a shocking disclosure to her
mother. During these visits, this young girl had been preyed upon by Begnoche who
had fondled the child, and indulged in oral, anal and vaginal sex acts with his
daughter. According to the victim, Begnoche’s assaults had begun when she was 7
years old and continued until she reported the abuse at age 10. Despite Begnoche’s
admonitions to the child that she should not disclose this longstanding abuse, the
child came forward and reported these assaults to her mother, who in turn confronted
Begnoche. Begnoche then fled to Connecticut.
4

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 5 of 52

A criminal investigation ensued. That investigation culminated in January of
2010 when Begnoche was charged with Rape of a Child Under 13 Years of Age,
Involuntary Deviate Sexual Intercourse with a Child Under 13 Years of Age,
Statutory Sexual Assault, Incest, Indecent Assault—Person Under 13 Years of Age,
Unlawful Contact or Communication with a Minor. Begnoche was then extradited
from Connecticut to Pennsylvania to face these charges relating to the serial sexual
abuse of his own daughter.
Ultimately, on December 5,2011, Begnoche agreed to enter a nolo contendere
plea to these charges in return for a 10-to-20-year sentence. At the time of his plea,
Begnoche completed a written plea colloquy, (Doc. 161, pp. 146-49), and engaged
in a searching sworn colloquy with the court. (Doc. 162.) These plea colloquies
made it clear that Begnoche’s decision to enter a nolo contendere plea was a
voluntary and fully informed decision on his part. Thus, Begnoche was completely
informed of the penalties for these offenses, the critical terms of the plea agreement,
and all of the consequences of his nolo plea. Without exception, Begnoche
acknowledged that he understood all of the matters but still wished to enter a plea.

(MO
Begnoche was then presented with a factual narrative regarding his criminal
conduct which explained that:
5

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 6 of 52

[T]he factual basis for these charges is that back in November of 2009
a minor who — with the initials of C.G., she is under 13 years old and
is Mr. Begnoche's biological daughter — did report being assaulted by
Mr. Begnoche. He would visit this area from Connecticut where he
lived. Come down to see his daughter She reported at that time that Mr.
Begnoche would touch her breast, vagina, and buttocks with his hands
and mouth. She did report penile penetration of her vagina. She reported
that he did force her to put her mouth on his penis and ejaculated in her
mouth. He would tell her not to tell anyone The victim did report that
this first occurred when she was approximately seven years old and
continued until 2009 when she was approximately 10 years old and
reported it.
(Doc. 162, p.5.)
The trial judge then engaged in the following exchange with Begnoche:
Sir, based on these facts how are you pleading to the charges of rape of
a child, involuntary sexual intercourse, statutory sexual assault, incest,
indecent assault, corruption of minors, and unlawful contact with a
minor?
THE DEFENDANT: No contest.

(Id.)
Begnoche did not pursue a direct appeal of this conviction and sentence but
instead waited until November 8, 2012 to file a petition under Pennsylvania’s Post
Conviction Relief Act (PCRA) challenging this plea and sentence. The trial court
denied this petition on December 27, 2013, (Doc. 161, p. 487), and Begnoche
appealed that decision to the Pennsylvania Superior Court, which affirmed his
conviction and sentence in a decision dated February 5, 2015. Commonwealth v.
6

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 7 of 52

Beenoche. No. 286 MDA 2014, 2015 WL 7587202, at *2 (Pa. Super. Ct. Feb. 5,
2015). Pennsylvania’s Supreme Court then denied the last of Begnoche’s multiple
requests for further review in September of 2015.
Following this state court litigation, Begnoche filed his initial federal habeas
corpus petition on October 21, 2015. Begnoche v. Thompson, No. 3:15-CV-2047.
Some fourteen months then elapsed until December 21, 2016 when Begnoche filed
his second federal habeas corpus petition. Begnoche v. Thompson, No. 3:16-CV2455. In these federal habeas corpus petitions, Begnoche lodged more than two
dozen challenges to his plea, conviction and sentence. Following protracted
litigation, the respondents have addressed all of Begnoche’s sundry claims, noting
that many of the claims are either unexhausted, procedurally defaulted, or timebarred, and arguing that the remaining legal claims advanced by Begnoche are
meritless and provide no grounds for setting aside this conviction and sentence.
For the reasons set forth below, we agree and recommend that these petitions
be denied.

7

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 8 of 52

III.

Discussion
A.

State Prisoner Habeas Relief-The Legal Standard.
(II Substantive Standards

In order to obtain federal habeas corpus relief, a state prisoner seeking to
invoke the power of this Court to issue a writ of habeas corpus must satisfy the
standards prescribed by 28 U.S.C. § 2254, which provides in part as follows:
(a) The Supreme Court, a Justice thereof, a circuit judge, or a district
court shall entertain an application for a writ of habeas corpus in behalf
of a person in custody pursuant to the judgment of a State court only on
the ground that he is in custody in violation of the Constitution or laws
or treaties of the United States.
(b) (1) An application for a writ of habeas corpus on behalf of a person
in custody pursuant to the judgment of a State court shall not be granted
unless it appears that—
(A) the applicant has exhausted the remedies available in the courts of
the State;
(2) An application for a writ of habeas corpus may be denied on the
merits, notwithstanding the failure of the applicant to exhaust the
remedies available in the courts of the State.
28 U.S.C. § 2254(a) and (b).
As this statutory text implies, state prisoners must meet exacting substantive
and procedural benchmarks in order to obtain habeas corpus relief. At the outset, a
petition must satisfy exacting substantive standards to warrant relief. Federal courts
may “entertain an application for a writ of habeas corpus on behalf of a person in
8

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 9 of 52

custody pursuant to the judgment of a State court only on the ground that he is in
custody in violation of the Constitution or laws^or treaties of the United States.” 28
U.S.C. § 2254(a). By limiting habeas relief to state conduct which violates “the
Constitution or laws or treaties of the United States,” § 2254 places a high threshold
on the courts. Typically, habeas relief will only be granted to state prisoners in those
instances where the conduct of state proceedings led to a “fundamental defect which
inherently results in a complete miscarriage of justice” or was completely
inconsistent with rudimentary demands of fair procedure. See e.g., Reed v. Farley,
512 U.S. 339, 354 (1994). Thus, claimed violations of state law, standing alone, will
not entitle a petitioner to § 2254 relief, absent a showing that those violations are so
great as to be of a constitutional dimension. See Priester v. Vaughan. 382 F.3d 394,
401-02 (3d Cir. 2004).
(D Deference Owed to State Courts
These same principles which inform the standard of review in habeas petitions
and limit habeas relief to errors of a constitutional dimension also call upon federal
courts to give an appropriate degree of deference to the factual findings and legal
rulings made by the state courts in the course of state criminal proceedings. There
are two critical components to this deference mandated by 28 U.S.C. § 2254.

9

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 10 of 52

First, with respect to legal rulings by state courts, under § 2254(d), habeas
relief is not available to a petitioner for any claim that has been adjudicated on its
merits in the state courts unless it can be shown that the decision was either: (1)
“contrary to” or involved an unreasonable application of clearly established case
law; see 28 U.S.C. § 2254(d)(1); or (2) was “based upon an unreasonable
determination of the facts,” see 28 U.S.C. § 2254(d)(2). Applying this deferential
standard of review, federal courts frequently decline invitations by habeas
petitioners to substitute their legal judgments for the considered views of the state
trial and appellate courts. See Rice v. Collins, 546 U.S. 333, 338-39 (2006); see also
Warren v. Kvler. 422 F.3d 132, 139^40 (3d Cir. 2006); Gattis v. Snvder. 278 F.3d
222, 228 (3d Cir. 2002).
In addition, § 2254(e) provides that the determination of a factual issue by a
state court is presumed to be correct unless the petitioner can show by clear and
convincing evidence that this factual finding was erroneous. See 28 U.S.C. §
2254(e)(1). This presumption in favor of the correctness of state court factual
findings has been extended to a host of factual findings made in the course of
criminal proceedings. See, e.g., Maggio v. Fulford. 462 U.S. Ill, 117 (1983) (per
curiam); Demosthenes v. Baal. 495 U.S. 731, 734-35 (1990). This principle applies
to state court factual findings made both by the trial court and state appellate courts.
10

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 11 of 52

Rolan v. Vaughn, 445 F.3d 671 (3d Cir.2006). Thus, we may not re-assess credibility
determinations made by the state courts, and we must give equal deference to both
the explicit and implicit factual findings made by the state courts. Weeks v. Snyder.
219 F.3d 245, 258 (3d Cir. 2000). Accordingly, in a case such as this, where a state
court judgment rests upon factual findings, it is well-settled that:
A state court decision based on a factual determination, ..., will not be
overturned on factual grounds unless it was objectively unreasonable in
light of the evidence presented in the state proceeding. Miller-El v.
Cockrell 537 U.S. 322, 123 S. Ct. 1029, 154 L.Ed.2d 931 (2003). We
must presume that the state court’s determination of factual issues was
correct, and the petitioner bears the burden of rebutting this
presumption by clear and convincing evidence. 28 U.S.C. § 2254(e)(1);
Campbell v. Vaughn. 209 F.3d 280, 285 (3d Cir.2000).
Rico v. Leftridge-Bvrd, 340 F.3d 178, 181 (3d Cir. 2003). Applying this standard of
review, federal courts may only grant habeas relief whenever “[o]ur reading of the
PCRA court records convinces us that the Superior Court made an unreasonable
finding of fact.” Rolan. 445 F.3d at 681.
(31Ineffective Assistance of Counsel Claims
These general principles apply with particular force to habeas petitions that
are grounded in claims of ineffective assistance of counsel. It is undisputed that the
Sixth Amendment to the United States Constitution guarantees the right of every
criminal defendant to effective assistance of counsel. Under federal law, a collateral
attack of a sentence based upon a claim of ineffective assistance of counsel must
n

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 12 of 52

meet a two-part test established by the Supreme Court in order to survive.
Specifically, to prevail on a claim of ineffective assistance of counsel, a petitioner
must establish that: (1) the performance of counsel fell below an objective standard
of reasonableness; and (2) that, but for counsel’s errors, the result of the underlying
proceeding would have been different. Strickland v. Washington. 466 U.S. 668, 68788, 691-92 (1984). A petitioner must satisfy both of the Strickland prongs in order
to maintain a claim of ineffective counsel. George v. Sivelv. 254 F.3d 438, 443 (3d
Cir. 2001).
At the outset, Strickland requires a petitioner to “establish first that counsel’s
performance was deficient.” Jermvn v. Horn. 266 F.3d 257, 282 (3d Cir. 2001). This
threshold showing requires a petitioner to demonstrate that counsel made errors “so
serious” that counsel was not functioning as guaranteed under the Sixth Amendment.
Id. Additionally, the petitioner must demonstrate that counsel’s representation fell
below an objective standard of reasonableness under prevailing professional norms.
Id. However, in making this assessment “[tjhere is a ‘strong presumption’ that
counsel’s performance was reasonable.” Id (quoting Berryman v. Morton. 100 F.3d
1089, 1094 (3d Cir. 1996)).
But a mere showing of deficiencies by counsel is not sufficient to secure
habeas relief. Under .the second Strickland prong, a petitioner also “must
12

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 13 of 52

demonstrate that he was prejudiced by counsel’s errors.” IcL This prejudice
requirement compels the petitioner to show that “there is a reasonable probability
that, but for counsel’s unprofessional errors, the result of the proceeding would have
been different.” Id A “reasonable probability” is defined as “a probability sufficient
to undermine confidence in the outcome.” Id
Thus, as set forth in Strickland, a petitioner claiming that his criminal defense
counsel was constitutionally ineffective must show that his lawyer’s “representation
fell below an objective standard of reasonableness.” Strickland. 466 U.S. at 688. “A
fair assessment of attorney performance requires that every effort be made to
eliminate the distorting effects of hindsight, to reconstruct the circumstances of
counsel’s challenged conduct, and to evaluate the conduct from counsel’s
perspective at the time.” Thomas v. Varner. 428 F.3d 491, 499 (3d Cir. 2005)
(quoting Strickland. 466 U.S. at 689). The petitioner must then prove prejudice
arising from counsel’s failings. “Furthermore, in considering whether a petitioner
suffered prejudice, ‘[t]he effect of counsel’s inadequate performance must be
evaluated in light of the totality of the evidence at trial: a verdict or conclusion only
weakly supported by the record is more likely to have been affected by errors than
one with overwhelming record support.’” Rolan. 445 F.3d at 682 (quoting
Strickland. 466 U.S. at 696) (internal quotations omitted).
13

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 14 of 52

Although sometimes couched in different language, the standard for
evaluating claims of ineffectiveness under Pennsylvania law is substantively
consistent with the standard set forth in Strickland. See Commonwealth v. Pierce.
527 A.2d 973, 976-77 fPa. 1987k see also Werts v. Vaugh. 228 F.3d 178, 203 (3d
Cir.2000) (“[A] state court decision that applied the Pennsylvania [ineffective
assistance of counsel] test did not apply a rule of law that contradicted Strickland
and thus was not ‘contrary to’ established Supreme Court precedent”). Accordingly,
a federal court reviewing a claim of ineffectiveness of counsel brought in a petition
under 28 U.S.C. § 2254 may grant federal habeas relief if the petitioner can show
that the state court’s adjudication of his claim was an “unreasonable application” of
Strickland. Billinger v. Cameron. 2010 U.S. Dist. LEXIS 63759, at *11, 2010 WL
2632286 (W.D. Pa. May 13, 2010). In order to prevail against this standard, a
petitioner must show that the state court’s decision “cannot reasonably be justified
under existing Supreme Court precedent.” Hackett v. Price. 381 F.3d 281, 287 (3d
Cir. 2004); see also Waddington v. Sarausad, 555 U.S. 179, 190 (2009) (where the
state court’s application of federal law is challenged, “the state court’s decision must
be shown to be not only erroneous, but objectively unreasonable.”) (internal citations
and quotations omitted).

14

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 15 of 52

This additional hurdle is added to the petitioner’s substantive burden under
Strickland. As the Supreme Court has observed a “doubly deferential judicial review
that applies to a Strickland claim evaluated under the § 2254(d)(1) standard.”
Knowles v. Mirzavance. 556 U.S. Ill, 123 (2009k see also Yarborough v. Gentry,
540 U.S. 1, 6 (2003) (noting that the review of ineffectiveness claims is “doubly
deferential when it is conducted through the lens of federal habeas”). This doubly
deferential standard of review applies with particular force to strategic judgment like
those thrust upon counsel in the instant case. In this regard, the Court has held that:
“The proper measure of attorney performance remains simply
reasonableness under prevailing professional norms.” Id, at 688, 104
S. Ct. 2052. “Judicial scrutiny of counsel's performance must be highly
deferential,” and “a court must indulge a strong presumption that
counsel’s conduct falls within the wide range of reasonable professional
assistance.” Id-, at 689, 104 S. Ct. 2052. “[Sjtrategic choices made after
thorough investigation of law and facts relevant to plausible options are
virtually unchallengeable.” Id., at 690, 104 S. Ct. 2052.
Knowles v. Mirzavance, 556 U.S. Ill, 124, 129 S. Ct. 1411, 1420, 173 L. Ed. 2d
251 (2009). The deference which is owed to these strategic choices by trial counsel
is great.
Therefore, in evaluating the first prong of the Strickland test, courts
“must indulge a strong presumption that counsel's conduct falls within
the wide range of reasonable professional assistance; that is, the
defendant must overcome the presumption that, under the
circumstances, the challenged action ‘might be considered sound trial
strategy.’ ” Id- The presumption can be rebutted by showing “that the
conduct was not, in fact, part of a strategy or by showing that the
15

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 16 of 52

strategy employed was unsound.” Thomas v. Varner. 428 F.3d 491,
499-500 (3d Cir.2005) (footnote omitted).
Lewis v. Horn, 581 F.3d 92, 113 (3d Cir. 2009).
These exacting legal benchmarks apply to ineffectiveness claims, like the
claims made here, which arise in a guilty plea context. In this regard, the Supreme
Court has explained that:
[T]he two-part Strickland v. Washington test applies to challenges to
guilty pleas based on ineffective assistance of counsel. In the context of
guilty pleas, the first half of the Strickland v. Washington test is nothing
more than a restatement of the standard of attorney competence already
set forth in Tollett v. Henderson, supra, and McMann v. Richardson,
supra. The second, or “prejudice,” requirement, on the other hand,
focuses on whether counsel’s constitutionally ineffective performance
affected the outcome of the plea process. In other words, in order to
satisfy the “prejudice” requirement, the defendant must show that there
is a reasonable probability that, but for counsel's errors, he would not
have pleaded guilty and would have insisted on going to trial.**
Hill v. Lockhart. 474 U.S. 52, 58-59, 106 S. Ct. 366, 370, 88 L. Ed. 2d 203 (1985).
(4) Procedural Benchmarks - Exhaustion. Procedural Default and
Statute of Limitations
a. Exhaustion of State Remedies
State prisoners seeking relief under section 2254 must also satisfy specific
procedural standards. Among these procedural prerequisites is a requirement that
the petitioner “has exhausted the remedies available in the courts of the State” before
seeking relief in federal court. 28 U.S.C. § 2254(b). In instances where a state
16

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 17 of 52

prisoner has failed to exhaust the legal remedies available to him in the state courts,
federal courts typically will refuse to entertain a petition for habeas corpus. Whitney
v. Horn. 280 F.3d 240, 250 (3d Cir. 2002).
This statutory exhaustion requirement is rooted in principles of comity and
reflects the fundamental idea that the state should be given the initial opportunity to
pass upon and correct alleged violations of the petitioner’s constitutional rights.
O’Sullivan v. Boerckel. 526 U.S. 838, 844 (1999).

The Supreme Court has

explained that “a rigorously enforced total exhaustion rule” is necessary in our dual
system of government to prevent a federal district court from upsetting a state court
decision without first providing the state courts the opportunity to correct a
constitutional violation. Rose v. Lundy. 455 U.S. 509, 518 (1982). Requiring
exhaustion of claims in state court also promotes the important goal of ensuring that
a complete factual record is created to aid a federal court in its review of § 2254
petitions. Walker v. Vaughn, 53 F.3d 609, 614 (3d Cir. 1995). A petitioner seeking
to invoke the writ of habeas corpus, therefore, bears the burden of showing that all
of the claims alleged have been “fairly presented” to the state courts, and the claims
brought in federal court must be the “substantial equivalent” of those presented to
the state courts. Evans v. Court of Common Pleas, 959 F.2d 1227, 1231 (3d Cir.
1992); Santana v. Fenton, 685 F.2d 71, 73-74 (3d Cir. 1982). A petitioner cannot
17

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 18 of 52

avoid this responsibility merely by suggesting that he is unlikely to succeed in
obtaining state relief, since it is well-settled that a claim of “likely futility on the
merits does not excuse failure to exhaust a claim in state court.” Parker v. Kelchner.
429 F.3d 58, 63 (3dCir. 2005).
Although this exhaustion requirement compels petitioners to have previously
given the state courts a fair “opportunity to apply controlling legal principles to the
facts bearing upon [the petitioner’s] constitutional claim,” Picard v. Connor, 404
U.S. 270, 276 (1971), this requirement is to be applied in a commonsense fashion.
Thus, the exhaustion requirement is met when a petitioner submits the gist of his
federal complaint to the state courts for consideration, without the necessity that the
petitioner engage in some “talismanic” recitation of specific constitutional clams.
Evans. 959 F.2d at 1230-33. Similarly, a petitioner meets his obligation by fairly
presenting a claim to state courts, even if the state courts decline to address that
claim. Dve v. Hofbauer. 546 U.S. 1 (2005) (per curiam); Johnson v. Pinchak. 392
F.3d 551, 556 (3d Cir. 2004).
b. Procedural Default
A necessary corollary of this exhaustion requirement is the procedural default
doctrine, which applies in habeas corpus cases. Certain habeas claims, while not
exhausted in state court, may also be incapable of exhaustion in the state legal system
18

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 19 of 52

by the time a petitioner files a federal habeas petition because state procedural rules
bar further review of the claim. In such instances:
In order for a claim to be exhausted, it must be “fairly presented” to the
state courts “by invoking one complete round of the State’s established
appellate review process.” O’Sullivan v. Boerckel. 526 U.S. 838, 84445, 119 S. Ct. 1728,344L.Ed.2d 1 (1999). If a claim has not been fairly
presented to the state courts and it is still possible for the claim to be
raised in the state courts, the claim is unexhausted ....
If a claim has not been fairly presented to the state courts but state law
clearly forecloses review, exhaustion is excused, but the doctrine of
procedural default may come into play. A procedural default occurs
when a prisoner’s federal claim is barred from consideration in the state
courts by an “independent and adequate” state procedural rule. Federal
courts may not consider the merits of a procedurally defaulted claim
unless the default and actual “prejudice” as a result of the alleged
violation of the federal law or unless the applicant demonstrates that
failure to consider the claim will result in a fundamental “miscarriage
ofjustice.” Coleman v. Thompson, 501 U.S. 722, 750, 111 S. Ct. 2546,
115 L.Ed.2d 640 (1991).
Carpenter v. Vaughn. 296 F.3d 138, 146 (3d Cir. 2002).
“[A] federal court will ordinarily not entertain a procedurally defaulted
constitutional claim in a petition for habeas corpus ‘[o]ut of respect for finality,
comity, and the orderly administration ofjustice.’ This is a reflection of the rule that
‘federal courts will not disturb state court judgments based on adequate and
independent state law procedural ground.’” Hubbard v. Pinchak, 378 F.3d 333, 338
(3d Cir. 2004) (citations omitted). Given these concerns of comity, the exceptions
to the procedural default rule, while well-recognized, are narrowly defined. Thus,
19

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 20 of 52

for purposes of excusing a procedural default of a state prisoner seeking federal
habeas relief, “[t]he Supreme Court has delineated what constitutes ‘cause’ for the
procedural default: the petitioner must ‘show that some objective factor external to
the defense impeded counsel’s efforts to comply with the State’s procedural rule.’”
Werts v. Vaughn, 228 F.3d 178,192-93 (3dCir. 2000) (citations omitted). Similarly,
when examining the second component of this “cause and prejudice” exception to
the procedural default rule, it is clear that:
With regard to the prejudice requirement, the habeas petitioner must
prove “‘not merely that the errors at ... trial created the possibility of
prejudice, but that they worked to his actual and substantial
disadvantage, infecting his, entire trial with error of constitutional
dimensions.’” This standard essentially requires the petitioner to show
he was denied “fundamental fairness” at trial. In the context of an
ineffective assistance claim, we have stated that prejudice occurs where
“there is a reasonable probability that, but for counsel’s deficient
performance, the result of the proceeding would have been different.”
Id. at 193 (citations omitted).
Likewise, the “miscarriage of justice” exception to this procedural bar rule is
also narrowly tailored, and requires a credible assertion of actual innocence to justify
a petitioner’s failure to comply with state procedural rules. Hubbard. 378 F.3d at
338.
Procedural bar claims typically arise in one of two factual contexts. First, in
many instances, the procedural bar doctrine is asserted because an express state court
20

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 21 of 52

ruling in prior litigation denying consideration of a habeas petitioner’s state claims
on some state procedural ground. In such a situation, courts have held that:
A habeas claim has been procedurally defaulted when “a state court
declined to address a prisoner’s federal claims because the prisoner had
failed to meet a state procedural requirement.” Coleman v. Thompson,
501 U:S. 722, 730, 111 S. Ct. 2546, 115 L.Ed.2d 640 (1991). For a
federal habeas claim to be barred by procedural default, however, the
state rule must have been announced prior to its application in the
petitioner’s case and must have been “firmly established and regularly
followed.” Ford v. Georgia, 498 U.S. 411, 423-24, 111 S. Ct. 850, 112
L.Ed.2d 935 (1991). Whether the rule was firmly established and
regularly followed is determined as of the date the default occurred, not
the date the state court relied on it, Doctor v. Walters. 96 F.3d 675, 684
(3d Cir. 1996), because a petitioner is entitled to notice of how to
present a claim in state court, Ford, 498 U.S. at 423-424,111 S. Ct. 850,
112 L.Ed.2d 935.
Taylor v. Horn, 504 F.3d 416, 427-28 (3d Cir. 2007).
In other instances, the procedural default arises, not because of an express
state court ruling, but as a consequence of a tactical choice by a habeas petitioner,
who elects to waive or forego a claim in the course of his state proceedings, and thus
fails to fully exhaust the claim within the time limits prescribed by state statute or
procedural rules. In such instances the petitioner’s tactical choices in state court
litigation also yield procedural defaults and waivers of claims federally. See, e.g„
Johnson v.Pinchak, 392 F.3d 551 (3d Cir. 2004) (procedural default where petitioner
failed to timely pursue state claim); Hull v. Freeman, 991 F.2d 86 (3d Cir. 1993)
(same).

Accordingly, a petitioner’s strategic choices in state court waiving or
21

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 22 of 52

abandoning state claims may act as a procedural bar to federal consideration of.his
claims, unless the petitioner can show either “cause and prejudice” or demonstrate a
“fundamental miscarriage of justice.”
c. Statute of Limitations
Furthermore, state prisoners seeking relief under Section 2254 must also
timely file motions seeking habeas corpus relief The Antiterrorism and Effective
Death Penalty Act of 1996 (“AEDPA”), 28 U.S.C. § 2244, established a one-year
statute of limitations on the filing of habeas petitions by state prisoners. In pertinent
part, § 2244(d)(1) provides as follows:
A 1-year period of limitation shall apply to an application for a writ of
habeas corpus by a person in custody pursuant to the judgment of a
State court. The limitation period shall run from the latest of(A) the date on which the judgment became final by the conclusion of
direct review or the expiration of the time for seeking such review;
(B) the date on which the impediment to filing an plication created by
State action in violation of the Constitution or laws of the United States
is removed, if the applicant was prevented from filing by such State
action;
(C) the date on which the constitutional right asserted was initially
recognized by the Supreme Court, if the right has been newly
recognized by the Supreme Court and made retroactively applicable to
cases on collateral review; or,
(D) the date on which the factual predicate of the claim or claims
presented could have been discovered through the exercise of due
diligence.
22

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 23 of 52

See Miller v. New Jersey State Dep’t of Corrections 145 F.3d 616, 617 (3d
Cir.1998).
The calculation of this limitations period is governed by a series of welldefined rules. At the outset, these rules are prescribed by statute, specifically 28
U.S.C. § 2244(d), prescribes several forms of statutory tolling. First, with respect to
tolling based upon a petitioner’s direct appeal of his conviction: “The limitation
period shall run from the latest of- (A) the date on which the judgment became final
by the conclusion of direct review or the expiration of the time for seeking such
review.” § 2244(d)(1)(A). The courts have construed this tolling provision in a
forgiving fashion, and in a manner that enables petitioners to toll their filing
deadlines for the time periods in which they could have sought further direct
appellate review of their cases, even if they did not, in fact, elect to seek such review.
Thus, with respect to direct appeals, the statute of limitations is tolled during the
period in which a petitioner could have sought United States Supreme Court review
through a petition for writ of certiorari, even if no such petition is filed. Jimenez v.
Ouarterman. 555 U.S. 113, 119, 129 S. Ct. 681,685, 172 L. Ed. 2d 475 (2009).
Section 2244(d)(2), in turn, prescribes a second period of statutory tolling
requirements while state prisoners seek collateral review of these convictions in state
court, and provides that:
23

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 24 of 52

The time during which a properly filed application for State post­
conviction or other collateral review with respect to the pertinent
judgment or claim is pending shall not be counted toward any period of
limitation under this subsection.
See Swartz v. Meyers. 204 F.3d 417, 419 (3d Cir. 2000).
In assessing § 2244(d)(2)’s tolling provision, for purposes of tolling the
federal habeas statute of limitations, a “properly filed application for State post
conviction or other collateral review” only includes applications which are filed in a
timely fashion under state law. Therefore, if the petitioner is delinquent in seeking
state collateral review of his conviction, that tardy state pleading will not be
considered a “properly filed application for State post-conviction or other collateral
review” and will not toll the limitations period. Pace v. DiGuglielmo, 544 U.S. 408,
412-14 (2005); Long v. Wilson. 393 F.3d 390, 394-95 (3d. Cir. 2004). Moreover, in
contrast to the direct appeal tolling provisions, this post-conviction petition tolling
provision does not allow for an additional 90 day period of tolling for the petitioner
who does not seek United States Supreme Court certiorari review of his conviction.
Miller v, Dragovich. 311 F.3d 574, 578 (3d Cir. 2002).
Further, it is important to note that § 2244(d)(2)’s tolling provision only
applies to properly filed applications for state post-conviction or other collateral
review. Therefore, it is well settled that this provision does not allow for tolling of

24

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 25 of 52

the statute of limitations while some prior federal post-conviction petition is
pending. As the Supreme Court has explained:
Section 2244(d)(2), . . . , employs the word “State,” but not the word
“Federal,” as a modifier for “review ” It is well settled that “ ‘[w]here
Congress includes particular language in one section of a statute but
omits it in another section of the same Act, it is generally presumed that
Congress acts intentionally and purposely in the disparate inclusion or
exclusion. Bates v. United States. 522 U.S. 23,29-30,118 S. Ct 285,
139 L.Ed.2d 215 (1997) (quoting Russello v. United States. 464 U.S.
16, 23, 104 S. Ct. 296, 78 L.Ed.2d 17 (1983)). We find no likely
explanation for Congress’ omission of the word “Federal” in §
2244(d)(2) other than that Congress did not intend properly filed
applications for federal review to toll the limitation period. It would be
anomalous, to say the least, for Congress to usher in federal review
under the generic rubric of “other collateral review” in a statutory
provision that refers expressly to “State” review, while denominating
expressly both “State” and “Federal” proceedings in other parts of the
same statute
9 99

Duncan v. Walker, 533 U.S. 167, 173, 121 S. Ct. 2120, 2125, 150 L. Ed. 2d 251
(2001).
Beyond this tolling period mandated by statute, it has also been held that
AEDPA’s one-year limitations period is not a jurisdictional bar to the filing of
habeas petitions, Miller, 145 F.3d at 617-18, and, therefore, is subject to equitable
tolling. Id. at 618-19.Yet, while equitable tolling is permitted in state habeas
petitions under AEDPA, it is not favored. As the United States Court of Appeals for
the Third Circuit has observed:
[EJquitable tolling is proper only when the “principles of equity would
make [the] rigid application [of a limitation period] unfair.” Generally,
25

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 26 of 52

this will occur when the petitioner has “in some extraordinary way ...
been prevented from asserting his or her rights.” The petitioner must
show that he or she “exercised reasonable diligence in investigating and
bringing [the] claims.” Mere excusable neglect is not sufficient.
Id. at 618-19 (citations omitted). Indeed, it has been held that only:
[T]hree circumstances permit[] equitable tolling: if
(1) the defendant has actively misled the plaintiff,
(2) if the plaintiff has in some extraordinary way been prevented from
asserting his rights, or
(3) if the plaintiff has timely asserted his rights mistakenly in the wrong
forum.
Jones v. Morton. 195 F.3d 153, 159 (3d Cir.1999) (citations omitted).
Fahv v. Horn. 240 F.3d 239, 244 (3d Cir. 2001).
Applying this exacting standard, courts have held that: “In non-capital cases,
attorney error, miscalculation, inadequate research, or other mistakes have not been
found to rise to the ‘extraordinary’ circumstances required for equitable tolling.” Id.
(citing Freeman v. Page. 208 F.3d 572 (7th Cir. 2000) (finding no basis for equitable
tolling where the statute of limitations was changed to shorten the time for filing a
PCRA only four months prior to the filing of the petition) and Taliani v. Chrans. 189
F.3d 597 (9th Cir. 1999) (finding lawyer’s inadequate research, which led to
miscalculating the deadline, did not warrant equitable tolling)). Courts have also
repeatedly rejected claims by pro se litigants that the burdens of proceeding pro se
should somehow exempt them from strict compliance with the statute of limitations.
26

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 27 of 52

See, e.g.. Marsh v. Soares. 223 F.3d 1217, 1220 (10th Cir. 2001); United States v.
Cicero. 214 F.3d 199, 203 (D.C. Cir. 2000); Felder v. Johnson. 204 F.3d 168, 171
(5th Cir. 2000). Thus, while tardy habeas petitioners often invite courts to find
extraordinary circumstances warranting equitable tolling, those invitations are rarely
embraced by the courts. See, e.g., Merritt v. Blaine. 326 F.3d 157 (3d.Cir. 2003)
(denying equitable tolling request); Robinson v. Johnson. 313 F.3d 128 (3d. Cir.
2002) (same).
Judged by these guideposts, as discussed below, Begnoche’s claims are
untimely, procedurally flawed and substantively lacking in any arguable merit.
B.

Many of Begnoche’s Claims Are Unexhausted and Procedurallv
Defaulted.

At the outset, Begnoche’s random, erratic, perplexing and prolix manner of
litigation now creates a series of procedural hurdles for the petitioner, since it
appears that many of the claims he now wishes to pursue are unexhausted and
procedurally defaulted. Simply put, Begnoche’s approach to this litigation has
created a profound procedural morass for the petitioner.
Begnoche originally pleaded no contest and was sentenced in December of
2011. It is undisputed that Begnoche failed to take a direct appeal from that plea and
sentence. Instead, nearly one year later in November of 2012, Begnoche pursued
state post-conviction relief. In his state PCRA petition, Begnoche raised only four
27

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 28 of 52

claims: (1) a broadly framed and amorphous constitutional claim; (2) an ineffective
assistance of counsel claim at his plea proceeding; (3) a claim that his plea was
involuntary and unlawful; and (4) a claim that loss of certain “work product” by
Connecticut officials denied him his appellate rights. (Doc. 161, pp. 478-81.) These
claims were rejected by the trial court and on February 5, 2015 the Pennsylvania
Superior Court affirmed this denial of post-conviction relief for Begnoche.
Commonwealth v. Begnoche. No. 286 MDA 2014, 2015 WL 7587202, at *1 (Pa.
Super. Ct. Feb. 5, 2015).
In stark contrast to the narrow range of issues properly preserved and
exhausted by Begnoche in state court, his current federal habeas corpus petitions
present a host of wholly unexhausted claims. For example, in his original federal
habeas corpus petition, Begnoche included the following unexhausted legal claims:
various ill-defined Brady violation claims, allegations concerning the destruction of
evidence, claims regarding the weight and sufficiency of the evidence and use of
hypnosis in police interviews, allegations that child care agencies breached their duty
of care, and allegations regarding the knowing use of false statements by police. See
Begnoche v. Thompson. 3:15-CV-2047, (Doc. 1, Claims 11, 17-22.) In the same
vein, the illegal sentence issues presented in Begnoche’s second federal habeas

28

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 29 of 52

corpus petition also all appear to have been unexhausted. See Begnoche v.
Thompson. 3:16-CV-2455. (Doc. 1.)
None of these legal claims have been subjected to a full round of state
appellate court review. Therefore none of these arguments have been fully and
properly exhausted in the state courts as required by §2254. See O’Sullivan v.
Boerckel. 526 U.S. 838, 844-45 (1999) (finding that a petitioner properly exhausts
claims in state court “by invoking one complete round of the State’s established
appellate review process”); Lines v. Larkin. 208 F.3d 153, 160 (3d Cir. 2000)
(“Petitioners who have not fairly presented their claims to the highest state court
have failed to exhaust those claims”); Evans v. Court of Common Pleas. Delaware
County. Pa.. 959 F.2d 1227, 1230 (3d Cir. 1992) (“A claim must be presented not
only to the trial court but also the state’s intermediate court as well as to its supreme
court”); Blasi v. Attv. Gen, of Pa.. 30 F.Supp.2d 481, 486 (M.D. Pa. 1998) (“The
exhaustion doctrine requires the defendant to present the issue to any intermediate
state appellate court, if applicable, and to the state’s supreme court”). Since the time
for properly presenting and exhausting these claims has now long since passed,
Begnoche has also procedurally defaulted on these claims.
In short, Begnoche has a penchant for procedural defaults. These defaults, and
Begnoche’s feckless approach to the litigation of these claims, now have
29

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 30 of 52

consequences for the petitioner. Begnoche’s failure to fully exhaust many of these
legal claims now creates a bar to the belated assertion of these matters in these
federal habeas corpus petitions, and these unexhausted and procedurally defaulted
claims should be dismissed.
C.

Begnoche May Not Set Aside His Conviction and Sentence Based
Upon a Belated Challenge to His Extradition.

As for the merits of these remaining claims, in the first of his federal habeas
corpus petitions, Begnoche devotes great time, attention and energy to lodging
complaints regarding the extradition process that led to his transfer from Connecticut
to Pennsylvania to face these charges in 2010. Indeed, a review of Begnoche’s
petition discloses that at least 11 of the 25 claims made by Begnoche in this pleading
concern his extradition from Connecticut.1 Thus, the gravamen of much of this
petition is the notion that Begnoche may now set aside the entire Pennsylvania
prosecution, including his own nolo contendere plea, based upon what he perceives
to be procedural flaws in his extradition from Connecticut.
We disagree. In our view, the legal and factual premise underlying this
petition—the notion that Begnoche may now legally challenge his extradition to
Pennsylvania and through that challenge declare his Pennsylvania conviction a

See Begnoche v. Thompson. 3:15-CV-2047, (Doc. 1, Claims 1-7, 9, 10, 15, and
16.)
30

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 31 of 52

nullity—is simply incorrect. On this score, the guiding legal principles are familiar
and clearly established.
It has long been established that the use of illegal means of extradition
does not impair the receiving state’s power to try a criminal defendant
in a proceeding which is itself untainted by constitutional error. Ker v.
Illinois. 119 U.S. 436, 7 S. Ct. 225, 30 L.Ed. 421 (1886). The Supreme
Court reaffirmed that principle in Frisbie v. Collins. 342 U.S. 519, 72
S. Ct. 509, 96 L.Ed. 541 (1952). There the Court refused habeas relief
to a Michigan prisoner who claimed that “while he was living in
Chicago, Michigan officers forcibly seized, handcuffed, blackjacked
and took him to Michigan.” 342 U.S. at 520. Writing for a unanimous
Court, Justice Black refused to void the criminal conviction because of
the allegedly unlawful extradition:
This Court has never departed from the rule announced in
Ker v. Illinois. 119 U.S. 436, 444, 7 S.Ct. 225, 229, 30
L.Ed. 421, that the power of a court to try a person for
crime is not impaired by the fact that he had been brought
within the court's jurisdiction by reason of a “forcible
abduction.” No persuasive reasons are now presented to
justify overruling this line of cases. They rest on the sound
basis that due process of law is satisfied when one present
in court is convicted of crime after having been fairly
apprized of the charges against him and after a fair trial in
accordance with constitutional procedural safeguards.
There is nothing in the Constitution that requires a court to
permit a guilty person rightfully convicted to escape
justice because he was brought to trial against his will.
342 U.S. at 522, 72 S. Ct. at 511 (footnote omitted).
In accord with this reasoning is United States ex rel. Huntt v. Russell.
285 F.Supp. 765 (E.D. Pa. 1968), affd.406 F.2d 744 (3dCir. 1969) (per
curiam). In Huntt. the Court of Appeals for the Third Circuit affirmed
the denial of a writ of habeas corpus sought by a prisoner who claimed,
inter alia, that he was deprived of his right to appointed counsel at an
31

1

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 32 of 52

extradition hearing. The district court opinion in Huntt relied upon
Frisbie. and held that “[ijllegal extradition does not afford a basis for
relief by way of habeas corpus.” 285 F.Supp. at 767. Accord Myers v.
Rhav. 577 F.2d 504, 510 (9th Cir.), cert, denied. 439 U.S. 968, 99 S.Ct.
459, 58 L.Ed.2d 427(1978).
In short, Supreme Court and Third Circuit precedents establish that
illegal extradition does not deprive the receiving sovereign of personal
jurisdiction over criminal defendants so transmitted.
Shack v. Warden of Graterford Prison. 593 F. Supp. 1329, 1331 (E.D. Pa. 1984),
aff d sub nom. Shack v. Attorney Gen, of State of Pennsylvania. 776 F.2d 1170 (3d
Cir. 1985). Rather, it is well-settled that:
To the extent [the petitioner] is arguing that he is due habeas relief
based on defects in the extradition itself, that issue is raised far too late.
See Harden v. Pataki. 320 F.3d 1289, 1299 (11th Cir. 2003) (“In the
case of extradition, ‘[o]nce a fugitive has been brought within custody
of the demanding state, legality of extradition is no longer proper
subject of any legal attack by him.’ Siegel v. Edwards. 566 F.2d 958,
960 (5th Cir. 1978) (per curiam)... ‘Once the fugitive is returned to the
demanding state, the right to challenge extradition becomes moot: the
fugitive is no longer being detained by the asylum state, and so, the
legality of his or her detention there is no longer at issue.’ Barton v.
Norrod. 106 F.3d 1289, 1298 (6th Cir. 1997). Thus, ... federal habeas
corpus is not available to a person extradited in violation of his or her
federally protected rights, even where the extradition itself was illegal
...” (footnote omitted)); Ker v. Illinois. 119 U.S. 436, 440-41, 7 S. Ct.
225, 30 L.Ed. 421 (1886) (“[F]or mere irregularities in the manner in
which he may be brought into custody of the law, we do not think [a
criminal defendant] is entitled to say that he should not be tried at all
for the crime with which he is charged in a regular indictment... [W]hen
the governor of one state voluntarily surrenders a fugitive from the
justice of another state to answer for his alleged offenses, it is hardly a
proper subject of inquiry on the trial of the case to examine into the
details of the proceedings by which the demand was made by the one
32

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 33 of 52

state, and the manner in which it was responded to by the other.”);
Frisbie v. Collins, 342 U.S. 519, 522, 72 S. Ct. 509,96 L.Ed. 541 (1952)
(“This Court has never departed from the rule ... that the power of a
court to try a person for crime is not impaired by the fact that he had
been brought within the court's jurisdiction by reason of a ‘forcible
abduction.’ ”).
LoPorto v. Mvers. No. CV 15-00437-WS-N, 2017 WL 5491010, at *8 (S.D. Ala.
Oct. 19, 2017). report and recommendation adopted. No. CV 15-00437-WS-N, 2017
WL 5473470 (S.D. Ala. Nov. 14, 2017).
These settled principles apply here and are fatal to these extradition claims,
which dominate Begnoche’s initial federal habeas corpus petition. Simply put,
Begnoche may not now be heard to complain that his extradition to Pennsylvania
raised matters of such profound constitutional gravity that his own no contest plea
conviction to the serial sexual abuse of a child must be set aside. This argument runs
contrary to settled caselaw, and has been roundly rejected by the courts. Therefore,
this assertion provides no basis for federal habeas corpus relief.
D.

The State Courts Correctly Concluded that Begnoche’s Plea Was
Voluntary.

Begnoche’s federal habeas corpus petition raises a second claim which was
thoroughly considered and flatly rejected by the state courts; namely, a claim that
his no contest plea was somehow fundamentally unfair and involuntary.
The state trial judge expressly considered and rejected this claim, finding that:
33

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 34 of 52

Review of the instant record reveals that Petitioner appeared with his
counsel in open court on the day he pled nolo contendere and the
Commonwealth recited the factual basis for the plea and conducted an
oral colloquy which corresponded to the negotiated plea agreement. A
written colloquy signed by Petitioner was admitted into the record, as
well. Petitioner responded in the affirmative to the Assistant District
Attorney and the Judge when asked if he understood the charges that
he was facing, if he understood that he was giving up certain
constitutional rights such as the right to a jury trial wherein he would
be presumed innocent and that his appellate rights would be severely
limited. (Notes of Testimony, Guilty Plea/Sentencing, 12/5/11 at 3-4;
6-9). Petitioner’s testimony makes clear he understood that by pleading
nolo contendere he was conceding that the Commonwealth had
sufficient evidence to prove that he was guilty of the pending charges,
beyond a reasonable doubt and, for sentencing purposes, he would be
treated as if he had pleaded guilty, and a conviction would appear on
his criminal record. (N.T. at 6-8). At the plea hearing on December 5,
2011, Petitioner indicated he “requested the nolo plea ...” because he
“could never put [his ] daughter on the stand to be in front of the court
to have to deal with all this and sort it out in public” making it
abundantly clear to this Court that he understood the action he was
taking and the repercussions that would result. (N.T. at 7, lines 19-23).
(Doc. 161, pp. 482-3.) The Superior Court also specifically rejected this claim by
Begnoche that his plea was involuntary, observing that: “Here, the trial court
addressed Begnoche’s claims and determined them to be without merit. See Trial
Court Opinion, 12/30/13, at 5-10; see also Written Plea Colloquy, 12/5/11, at 1-4
(unnumbered); N.T., 12/5/11, at 2-9. We adopt the sound reasoning of the trial court
for the purpose of this appeal.” Commonwealth v. Begnoche, No. 286 MDA 2014,
2015 WL 7587202, at *2 (Pa. Super. Ct. Feb. 5, 2015).

34

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 35 of 52

These explicit and well-supported state court findings are now fatal to
Begnoche’s federal habeas corpus challenge to this plea. Because a plea results in a
waiver of the constitutional right to a jury trial, the right to confront accusers, and
the right against self-incrimination, it must be a “knowing, intelligent act” and “the
voluntary expression of [the defendant's] own choice.” Heiser v. Ryan, 951 F.2d
559, 561 (3d Cir. 1991) (quoting Brady v. United States, 397 U.S. 742, 748 (1970)).
“Ignorance, incomprehension, coercion, terror, inducements, subtle or blatant threats
might be a perfect cover-up of constitutionality.” Bovkin v. Alabama, 395 U.S. 238,
242-43 (1969). Accordingly, the test for determining the validity of a plea is
“whether the plea represents a voluntary and intelligent choice among the alternative
courses of action open to the defendant.” Hill v. Lockhart. 474 U.S. 52, 56 (1985)
(quoting North Carolina v. Alford. 400 U.S. 25, 31 (1970)). A plea may be
constitutionally infirm if the defendant failed to appreciate and understand the
constitutional rights he was waiving by pleading guilty, or had an incomplete
understanding of the charges lodged against him. Henderson v. Morgan, 426 U.S.
637, 645 n.13 (1976).
The Third Circuit has observed that “[a] habeas petitioner challenging the
voluntary nature of his or her guilty plea faces a heavy burden.” Zilich v. Reid, 36
F.3d317, 320 (3d Cir. 1994). This is particularly so because the underlying criminal
35

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 36 of 52

proceedings ordinarily contain sworn attestations that the petitioner made during the
course of a plea colloquy, which often—and as the case here

“is designed to

uncover hidden promises or representations as to the consequences of a guilty plea.”
Id. For this reason, “[i]t can hardly be gainsaid that declarations made under oath
ought not to be lightly cast aside.” Id. A petitioner challenging the validity of a guilty
plea generally “must advance specific and credible allegations detailing the nature
and circumstances” of the reasons why he contends his plea was not truly voluntary.
Id. at 320-21.
The legal standards governing whether a plea is voluntary for federal
constitutional purposes present a question of law, but “questions of historical fact,
including inferences properly drawn from such facts, are in this context entitled to
the presumption of correctness accorded state court factual findings.” Parke v. Ralev.
506 U.S. 20, 35 119921: see also Mevers v. Gillis. 93 F.3d 1147,1149 (3d Cir. 1996).
When considering the validity of petitioners’ claims, federal courts must give
substantial deference to the rulings of the state courts. With respect to legal rulings
by state courts, under § 2254(d), habeas relief is not available to a petitioner for any
claim that has been adjudicated on its merits in the state courts unless: (1) it involved
an unreasonable application of clearly established law; or (2) it was based upon an
unreasonable determination of the facts. 28 U.S.C. § 2254(d). Furthermore, as noted
36

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 37 of 52

above, pursuant to 28 U.S.C. § 2254(e)(1), a determination of a factual issue by a
state court is presumed to be correct unless the petitioner can show by clear and
convincing evidence that this factual finding was erroneous. Midglev v. Kane, No.
3:15-CV-1223, 2017 WL 5588212, at *12 (M.D. Pa. Oct. 30, 2017), report and
recommendation adopted. No. CV 3:15-1223, 2017 WL 5571168 (M.D. Pa. Nov.
20, 2017).
Applying this deferential standard of review, Begnoche’s belated attack upon
this plea are unavailing. As the state courts have observed, at the time of his plea,
Begnoche completed a written plea colloquy, (Doc. 161, pp. 146-49), and engaged
in a searching sworn colloquy with the court. (Doc. 162.) These plea colloquies
made it abundantly clear that Begnoche’s decision to enter a nolo contendere plea
was a wholly voluntary and fully informed decision. Thus, Begnoche was
completely informed of the penalties for these offenses, the critical terms of the plea
agreement, and all of the consequences of his nolo plea. Without exception,
Begnoche acknowledged that he understood all of the matters but still wished to
enter a plea. (Id.)
Begnoche was then presented with a factual narrative regarding his criminal
conduct which explained that:
[T]he factual basis for these charges is that back in November of 2009
a minor who — with the initials of C.G., she is under 13 years old and
37

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 38 of 52

is Mr. Begnoche’s biological daughter — did report being assaulted by
Mr. Begnoche. He would visit this area from Connecticut where he
lived. Come down to see his daughter She reported at that time that Mr.
Begnoche would touch her breast, vagina, and buttocks with his hands
and mouth. She did report penile penetration of her vagina. She reported
that he did force her to put her mouth on his penis and ejaculated in her
mouth. He would tell her not to tell anyone The victim did report that
this first occurred when she was approximately seven years old and
continued until 2009 when she was approximately 10 years old and
reported it.
(Doc. 162, p.5.)
The trial judge then engaged in the following exchange with Begnoche:
Sir, based on these facts how are you pleading to the charges of rape of
a child, involuntary sexual intercourse, statutory sexual assault, incest,
indecent assault, corruption of minors, and unlawful contact with a
minor?
THE DEFENDANT: No contest.
(Id.)
Nothing presented by Begnoche in his federal habeas corpus petition provides
the slightest grounds to doubt the veracity of the sworn statements made by
Begnoche in December of 2011 at the time of his plea and sentencing, or the
knowing and voluntary quality of his plea. Further, these “questions of historical
fact, including inferences properly drawn from such facts, are in this context entitled
to the presumption of correctness accorded state court factual findings.” Parke v.
Raley. 506 U.S. 20, 35 (1992); see also Meyers v. Gillis. 93 F.3d 1147, 1149 (3d
38

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 39 of 52

Cir. 1996). Given that “[a] habeas petitioner challenging the voluntary nature of his
or her guilty plea faces a heavy burden,” Zilich v. Reid, 36 F.3d 317, 320 (3d Cir.
1994), we find that Begnoche’s threadbare claim that his plea was involuntary
simply does not meet this exacting burden of proof, and would in fact require us to
conclude that Begnoche’s sworn statements in December of 2011 were a calculated
fabric of lies. Since Begnoche has not met his burden of proof and persuasion on this
particular claim, we should follow the path chosen by every court that has considered
this particular argument and deny Begnoche’s petition for post-conviction relief on
the grounds that his plea was involuntary.
E.

Begnoche’s Plea Acts as a Waiver of Many of His Remaining Legal
Claims.

The undeniably voluntary nature of this plea, in turn, creates yet another
obstacle for Begnoche as he seeks to challenge and quibble over various aspects of
his state prosecution. Begnoche’s no contest plea in this case constituted a waiver of
many of the claims which he now wishes to belatedly pursue. On this score:
It is well established that a criminal defendant’s unconditional,
knowing and voluntary plea of guilty waives all non-jurisdictional
issues. Woodward v. United States. 426 F.2d 959, 964 (3d Cir. 1970);
Abram v. United States. 398 F.2d 350 (3d Cir. 1968); see also Doggett
v. United States. 505 U.S. 647, 658 n. 3, 112 S. Ct. 2686, 120 L.Ed.2d
520 (1992) (finding no waiver where defendant preserved right to
appeal). “A guilty plea ... renders irrelevant those constitutional
violations not logically inconsistent with the valid establishment of
factual guilt and which do not stand in the way of conviction if factual
39

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 40 of 52

guilt is validly established.” Menna v. New York, 423 U.S. 61, 62 n. 2,
96 S. Ct. 241, 46 L.Ed.2d 195 (1975). This includes “many of the most
fundamental protections afforded by the Constitution,” United States v.
Mezzanatto. 513 U.S. 196, 201, 115 S. Ct. 797, 130 L.Ed.2d 697
(1995), such as the right to a jury trial, the right to confront and crossexamine witnesses, and the right against self-incrimination, United
States v. Khattak, 273 F.3d 557, 561 (3d Cir. 2001) (quoting Boykin v.
Alabama. 395 U.S. 238, 243, 89 S. Ct. 1709, 23 L.Ed.2d 274 (1969)).
Washington v. Sobina, 475 F.3d 162, 165 (3d Cir. 2007).
Likewise, “it is well-settled ‘that a defendant who pleads nolo contendere
waives all defects and defenses except those concerning the jurisdiction of the court,
legality of sentence, and validity of plea.’” Commonwealth v. Begnoche. No. 286
MDA 2014, 2015 WL 7587202, at *2 (Pa. Super. Ct. Feb. 5, 2015) (quoting
Commonwealth v. Kraft. 739 A.2d 1063, 1064 (Pa. Super. 1999)). While a guilty
plea does not constitute a waiver of jurisdictional claims, such claims are construed
narrowly. Thus,
[A] jurisdictional claim implicates the trial court’s “statutory or
constitutional power to hear a case.” United States v. Cotton. 535 U.S.
625, 630, 122 S. Ct. 1781, 152 L.Ed.2d 860 (2002) (emphasis in
original). The Pennsylvania trial courts have subject matter jurisdiction
over criminal proceedings by virtue of prima facie evidence that a
violation of Pennsylvania’s criminal code occurred within the county
of trial. Commonwealth v. McNeil. 445 Pa. Super. 526, 665 A.2d 1247,
1251 (1995); see also Commonwealth v. Bethea. 574 Pa. 100, 828 A.2d
1066, 1074 (2003) (discussing statutory and constitutional basis for
jurisdiction of courts of common pleas).
Washington v. Sobina. 475 F.3d 162, 165 (3d Cir. 2007).

40

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 41 of 52

Having concluded, as the state courts found, that Begnoche’s plea was a
knowing, intelligent and voluntary plea, we note that this plea acts as a waiver of
many of the belated quibbles and complaints asserted by Begnoche regarding the
conduct of this investigation. Given Begnoche’s sworn admission that the evidence
was sufficient to convict him of these crimes involving the calculated sexual
exploitation of his own daughter, Begnoche has waived the right to re-litigate these
matters at this late date.
F.

Begnoche’s Ineffective Assistance of Counsel Claims also Fail,

Begnoche’s federal habeas corpus petition also reprises a series of ill-defined
ineffective assistance of counsel claims. Like his assertions regarding the
involuntariness of his plea, many of these claims have been carefully considered,
and rejected, by the state courts. As the trial court observed: “Based upon our review
of the guilty plea and sentencing transcript, Petitioner entered his plea voluntarily
and knowingly, and the sentence negotiated was significantly less than the possible
maximums that may have been imposed had he been convicted. As no manifest
injustice has been established we find that counsel acted reasonably and that
Petitioner's claim of ineffectiveness fails.” (Doc. 161, p. 486.)
Employing the “doubly deferential judicial review that applies to a Strickland
claim evaluated under the § 2254(d)(1) standard,” Knowles v. Mirzavance, 556 U.S.
41

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 42 of 52

111, 123 (2009), we conclude that these state court findings are amply supported by
the record of Begnoche’s state proceedings. Therefore, these claims do not provide
grounds for federal heaves corpus relief.
In particular, Begnoche’s ineffective assistance of trial counsel claims neglect
to consider the very exacting standards prescribed by law for such arguments in the
context of a defendant who has entered a plea to criminal charges. In this setting, the
Supreme Court has explained that:
In the context of guilty pleas, the first half of the Strickland v.
Washington test is nothing more than a restatement of the standard of
attorney competence already set forth in Tollett v. Henderson, supra.
and McMann v. Richardson, supra. The second, or “prejudice,”
requirement, on the other hand, focuses on whether counsel's
constitutionally ineffective performance affected the outcome of the
plea process. In other words, in order to satisfy the “prejudice”
requirement, the defendant must show that there is a reasonable
probability that, but for counsel's errors, he would not have pleaded
guilty and would have insisted on going to trial.
Hill v. Lockhart. 474 U.S. 52, 58-59, 106 S. Ct. 366, 370, 88 L. Ed. 2d 203 (1985)
(emphasis added).
Begnoche has made no such showing here, nor can he. Begnoche cannot show
a reasonable probability that, but for counsel’s errors, he would not have pleaded
guilty and would have insisted on going to trial, because at the time of his plea he
told the court that the decision to plead was based upon considerations that were
entirely independent of counsel’s advice or performance. As Begnoche explained:
42

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 43 of 52

“I could never put my daughter on the stand to be in front of the Court to have to
deal with all this and sort it out in public. And I - that’s the reason I'm taking a plea
like that, because I’m not dealing with everybody going through more hell. There’s
enough

collateral

damage.”

(Doc.

162,

p.

7.)

We

credit Begnoche’s

contemporaneous, sworn statement at the time of his plea that the decision to plead
was entirely unrelated to his defense counsel’s conduct. Crediting Begnoche’s
assertions on this score, we conclude that Begnoche simply has not shown the
indispensable element of prejudice that is crucial to an ineffective assistance of
counsel claim in this setting, and this trial counsel ineffectiveness claim fails.
In this federal habeas corpus petition, Begnoche also forays into an attack
upon the effectiveness of his PCRA counsel. The argument fails as a free-standing
legal claim for a single, simple reason. Section 2254 states that “[t]he ineffectiveness
or incompetence of counsel during Federal or State collateral post-conviction
proceedings shall not be a ground for relief in a proceeding arising under section
2254.” 28 U.S.C. § 2254(i). Further, the Supreme Court has stated that “[tjhere is no
constitutional right to an attorney in state post-conviction proceedings,” and
consequently “a petitioner cannot claim constitutionally ineffective assistance of
counsel in such proceedings.” Coleman v. Thompson, 501 U.S. 722, 752 (1991)
(citing Pennsylvania v. Finley. 481 U.S. 551 (1987) and Wainwright v. Toma, 455
43

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 44 of 52

U.S. 586 (1982V): see also Holman v, Gillis, 58 F. Supp. 2d 587, 597 (E.D. Pa. 1999)
(stating that “a claim of ineffective assistance of PCRA counsel is not cognizable in
a federal habeas corpus petition because the right to effective assistance of PCRA
counsel exists pursuant to state law, and is not mandated by the Constitution or laws
or treaties of the United States”).
G.

Begnoche’s Second Federal Habeas Corpus Petition Is Untimely
and Meritless.

While the foregoing discussion addresses the claims advanced by Begnoche
in his initial federal habeas corpus petition, there is a second federal habeas corpus
petition filed by Begnoche which we must also consider. Begnoche v. Thompson,
No. 3:16-CV-2455.
This second petition appears to raise some sort of sentencing argument, albeit
in what is plainly a tardy fashion. With respect to the chronology of this litigation,
the essential facts are entirely undisputed. On December 5, 2011, Begnoche entered
a no-contest plea to these state charges and was sentenced. Begnoche did not pursue
a direct appeal of this conviction and sentence but instead waited until November 8,
2012 to file a petition under the PCRA challenging this plea and sentence. The trial
court denied this petition on December 27, 2013, (Doc. 161, p. 487), and Begnoche
appealed that decision to the Pennsylvania Superior Court, which affirmed his
conviction and sentence in a decision dated February 5, 2015. Commonwealth v.
44

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 45 of 52

Begnoche. No. 286 MDA 2014, 2015 WL 7587202, at *2 (Pa. Super. Ct. Feb. 5,
2015). Pennsylvania’s Supreme Court then denied the last of Begnoche’s multiple
requests for further review in September of 2015.
Begnoche then filed his initial federal habeas corpus petition on October 21,
2015. Begnoche v. Thompson, No. 3:15-CV-2047. Some fourteen months elapsed
until December 21, 2016 when Begnoche filed his second federal habeas corpus
petition. Begnoche v. Thompson. No. 3:16-CV-2455.
On these facts we find as a threshold matter that this second habeas corpus
petition is time-barred. As we have noted, the Antiterrorism and Effective Death
Penalty Act of 1996 (“AEDPA”), 28 U.S.C. § 2244, established a one-year statute
of limitations on the filing of habeas petitions by state prisoners. 28 U.S.C. §
2244(d)(1). While this limitations period is tolled during timely and proper state
post-conviction litigation, there is no form of statutory tolling that would apply based
upon the serial filing of multiple federal habeas corpus petitions.
Therefore, applying these tolling principles in the most generous fashion, it
appears that some 300 days elapsed between the time of Begnoche’s original
conviction and his 2012 PCRA state post-conviction filing. While that pending state
post-conviction litigation tolled the limitations period, even the most expansive
reading of this tolled time period would have drawn to a close in September of 2015
45

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 46 of 52

when the Pennsylvania

Supreme Court denied Begnoche’s request for

reconsideration. Begnoche’s second federal habeas corpus petition was not filed
until December 2016, more than 14 months later. Since Begnoche’s prior federal
filing did not serve to toll the statute of limitations, the second petition, on its face,
falls well beyond the one-year limitations period prescribed by statute.
Nor can Begnoche save this untimely petition by claiming that he is entitled
to equitable tolling of this statute of limitations. On this score, we find that Begnoche
has not carried his burden of proof on an essential element of equitable tolling by
showing that: “the petitioner has 'in some extraordinary way... been prevented from
asserting his or her rights. ’” Miller. 145 F.3d at 618-19 (citations omitted) (emphasis
added). Indeed, this argument fails because we find that Begnoche has failed to
satisfy a basic prerequisite for equitable tolling. He has failed to show that he
“exercised reasonable diligence in investigating and bringing [the] claims.” Miller.
145 F.3d at 618-19 (citations and quotations omitted). In the face of this inaction by
the petitioner, no form of equitable tolling analysis can save this petition from the
fate which AEDPA’s one-year statute of limitations dictates in this case. Thus, on
its face, this petition is untimely and falls outside § 2244(d)’s one-year limitation
period, and we cannot find any extraordinary circumstances of the type which would
justify equitable tolling of this limitations period.
46

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 47 of 52

Furthermore, while Begnoche has made no showing of extraordinary
circumstances on his part which would justify tolling this limitations period, there
are substantial interests that weigh in favor of holding the petitioner strictly to the
limitations period prescribed by law. These countervailing interests include the
strong societal interests favoring finality in litigation, as well as the institutional
interests of the criminal justice system, which favor prompt presentation and
resolution of disputes. However, when considering a statute of limitations question
which arises in the context of a belated collateral attack upon criminal convictions
involving the sexual abuse of a child, there is also an important human dimension to
the statute of limitations. To ignore the limitations period prescribed by law, and
permit Begnoche to belatedly re-open this case, would compel his victim to, once
again, experience the trauma of these events. Since Begnoche has not fulfilled his
responsibility to bring this petition in a timely manner, and has not carried his burden
of showing extraordinary circumstances justifying a tolling of the statute of
limitations, he should not be entitled to compel the government to require his victim
to revisit these events.
In any event, entirely aside from the bar of the statute of limitations,
Begnoche’s sentencing claims raised in this tardy petition are meritless. While the
precise tenor of these claims is difficult to discern, it appears that Begnoche is relying
47

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 48 of 52

upon the Supreme Court’s decisions in Allevne v. United States 570 U.S. 99, 103,
133 S. Ct. 2151, 2155, 186 L. Ed. 2d 314 (2013) and Apprendi v. New Jersey. 530
U.S. 466, 120 S. Ct. 2348, 147 L. Ed. 2d 435 (2000), to argue that his sentence was
illegal because there were facts relevant to the penalty for these sexual abuse
charges; namely, the fact that the age of his victim was under 13, which Begnoche
insists must be proven beyond a reasonable doubt to a jury.
This argument warrants only brief consideration because it misconstrues both
the reach and the teaching of Allevne and Apprendi. and ignores what Begnoche
acknowledged when he entered his no contest plea. At the outset, Begnoche errs
when he suggests that Allevne applies retroactively to collateral review of cases that
were decided prior to the Supreme Court’s decision in this case. Quite the contrary,
it is well-settled that “while Allevne set out a new rule of law, it is not retroactively
applicable to cases on collateral review.” United States v. Reves. 755 F.3d 210, 212
(3d Cir. 2014).
Moreover Begnoche misreads Allevne. Apprendi. and their application in a
plea setting. While these cases stand generally for the proposition that under the
Sixth Amendment “[a]ny fact that, by law, increases the penalty for a crime is an
‘element’ that must be submitted to the jury and found beyond a reasonable doubt,”
Allevne. 570 U.S. at 103, there is a crucial caveat to this proposition which applies
48

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 49 of 52

in a plea setting. When a defendant in the course of a plea proceeding acknowledges
those factual matters which would enhance the sentence and thus constitute an
element of the offense, there is no Sixth Amendment violation. Espada v. United
States. No. CV 13-7250 (SDW), 2016 WL 6134113, at *6 (D.N.J. Oct. 20, 2016)
(citing United States v. Ramirez, 528 Fed.Appx. 678, 679-80 (7th Cir. 2013)
(admission as to drug quantity in plea colloquy “negated the need for the district
court to make a finding beyond a reasonable doubt regarding drug quantity”); United
States v. Yancy. 725 F.3d 596, 601-602 (6th Cir. 2013) (admission of critical facts
by a defendant during his plea colloquy negates any need for a jury to find those
facts beyond a reasonable doubt); see also United States v. Booker, 543 U.S. 220,
244 (2005) (holding, under Apprendi rule upon which Allevne was based, that “any
fact... which is necessary to support a sentence exceeding the maximum authorized
by the facts established by a plea of guilty or a jury verdict must be admitted by the
defendant or proved to a jury beyond a reasonable doubt,” (emphasis added)). Thus,
(4 4

elements that increase the mandatory minimum are established in accordance with

Allevne when the defendant admits those facts in connection with his guilty plea.’
United States v. Crossan. No. 13-5342,2014 WL 695057, at *2-3 (E.D. Pa. Feb. 24,
2014) (citing United States v. Yancy. 725 F.3d 596, 601 (6th Cir. 2013), United
States v. Harris. 543 F. App’x 587, 589 (7th Cir. 2013), and United States v. Oliver.
49

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 50 of 52

544 F. App’x 858, 860 (11th Cir. 2013)).” King v. Wingard, No. CV 16-2185, 2017
WL 2664209, at *6 (E.D. Pa. May 16, 2017), report and recommendation adopted.
No. 2:16-CV-02185, 2017 WL 2654096 (E.D. Pa. June 20, 2017).
That is precisely what happened in the instant case. With respect to the
immutable fact of the victim’s age, a fact which increased the statutory sentence, the
plea colloquy reveals the following recital by the prosecution:
[T]he factual basis for these charges is that back in November of 2009
a minor who — with the initials of C.G., she is under IS years old and
is Mr. Begnoche's biological daughter — did report being assaulted by
Mr. Begnoche. He would visit this area from Connecticut where he
lived. Come down to see his daughter She reported at that time that Mr.
Begnoche would touch her breast, vagina, and buttocks with his hands
and mouth. She did report penile penetration of her vagina. She reported
that he did force her to put her mouth on his penis and ejaculated in her
mouth. He would tell her not to tell anyone The victim did report that
this first occurred when she was approximately seven years old and
continued until 2009 when she was approximately 10 years old and
reported it.
(Doc. 162, p.5.)
The trial judge then asked Begnoche:
Sir, based on these facts how are you pleading to the charges of rape of
a child, involuntary sexual intercourse, statutory sexual assault, incest,
indecent assault, corruption of minors, and unlawful contact with a
minor?
THE DEFENDANT: No contest.

(Id.)
50

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 51 of 52

Thus, Begnoche plainly acknowledged during the plea colloquy that the childvictim, his own daughter, was 7 to 10 years old at the time of the sexual abuse which
was the subject of his nolo contendere plea. Given the acknowledgement of this
undisputed fact by Begnoche during the course of the plea proceeding, no further
proof of this element of the crime was necessary and the constitutional principles
announced in Allevne and Apprendi were not violated.
In sum, while Begnoche attempts to cast himself as the victim of an unfair
extradition, an unjust plea, an illegal sentence, and ineffective counsel, he has not
provided grounds which would justify discounting his voluntary plea to these
offenses involving the cruel sexual abuse of his own daughter or warrant setting
aside his conviction for these crimes. Therefore, these petitions should be denied and
no certificate of appealability should issue in this case.
IV.

Recommendation
Accordingly, for the foregoing reasons, IT IS RECOMMENDED that the

petition for a writ of habeas corpus in this case be DENIED, and that a certificate of
appealability should not issue.
The petitioner is further placed on notice that pursuant to Local Rule 72.3:
Any party may object to a magistrate judge's proposed findings,
recommendations or report addressing a motion or matter described in
28 U.S.C. § 636 (b)(1)(B) or making a recommendation for the
disposition of a prisoner case or a habeas corpus petition within
51

Case 3:15-cv-02047-RDM Document 163 Filed 04/25/19 Page 52 of 52

fourteen (14) days after being served with a copy thereof. Such party
shall file with the clerk of court, and serve on the magistrate judge and
all parties, written objections which shall specifically identify the
portions of the proposed findings, recommendations or report to which
objection is made and the basis for such objections. The briefing
requirements set forth in Local Rule 72.2 shall apply. A judge shall
make a de novo determination of those portions of the report or
specified proposed findings or recommendations to which objection is
made and may accept, reject, or modify, in whole or in part, the findings
or recommendations made by the magistrate judge. The judge,
however, need conduct a new hearing only in his or her discretion or
where required by law, and may consider the record developed before
the magistrate judge, making his or her own determination on the basis
of that record. The judge may also receive further evidence, recall
witnesses or recommit the matter to the magistrate judge with
instructions.
Submitted this 25th day of April 2019.
S/Martin C. Carlson
Martin C. Carlson
United States Magistrate Judge

52

Case 3:15-cv-02047-RDM Document 195 Filed 07/09/20 Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF PENNSYLVANIA
PAUL BEGNOCHE,
Petitioner,
3:15-CV-2047
(JUDGE MARIAN!)

v.
BRIAN THOMPSON, et al.,
Respondents.
PAUL BEGNOCHE
Petitioner,

3:16-CV-2455
(JUDGE MARIANI)

v.
BRIAN THOMPSON, etal.,
Respondents.

ORDER
AND NOW, THIS

AY OF JULY, 2020, upon de novo review of Magistrate

Judge Carlson’s Report & Recommendation (“R&R") (Case No. 3:15-CV-2047, Doc. 163;
Case No. 3:16-CV-2455, Doc. 20), Petitioner’s Objections thereto (Case No. 3:15-CV-2047
Doc. 171), and all relevant filings, for the reasons set forth in this Court’s accompanying
memorandum opinion, IT IS HEREBY ORDERED THAT.
1. Petitioner’s Objections (Case No. 3:15-CV-2047, Doc. 171) are OVERRULED for
the reasons explained in this Court’s accompanying memorandum opinion.

Case 3:15-cv-02047-RDM Document 195 Filed 07/09/20 Page 2 of 2

2. The R&R (Case No. 3:15-CV-2047, Doc. 163; Case No. 3:16-CV-2455, Doc. 20)
is ADOPTED for the reasons explained therein and in this Court's accompanying
memorandum opinion.
3. Paul Begnoche’s First Petition for a Writ of Habeas Corpus pursuant to 28 U.S.C.
§ 2254 (Case No. 3:15-CV-2047, Doc. 1) is DENIED.
4. Paul Begnoche’s Second Petition for a Writ of Habeas Corpus pursuant to 28
U.S.C. § 2254 (Case No. 3:16-CV-2455, Doc. 1) is DENIED.
5. A Certificate of Appealability SHALL NOT ISSUE.
6. The Clerk of Court is directed to CLOSE the case.

Robert la Mariaj^
United SfeteTDistrict Judge

Additional material
from this filing is
available in the
Clerk's Office.

